<html>
<title> - EXAMINING PREPAREDNESS AND COORDINATION EFFORTS OF FIRST RESPONDERS ALONG THE SOUTHWEST BORDER</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



  EXAMINING PREPAREDNESS AND COORDINATION EFFORTS OF FIRST RESPONDERS 
                       ALONG THE SOUTHWEST BORDER

=======================================================================

                                HEARING

                               before the

               SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS,
                       PREPAREDNESS, AND RESPONSE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 31, 2009

                               __________

                           Serial No. 111-13

                               __________

       Printed for the use of the Committee on Homeland Security


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
55-055 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON HOMELAND SECURITY

               BENNIE G. THOMPSON, Mississippi, Chairman

LORETTA SANCHEZ, California          PETER T. KING, New York
JANE HARMAN, California              LAMAR S. SMITH, Texas
PETER A. DeFAZIO, Oregon             MARK E. SOUDER, Indiana
ELEANOR HOLMES NORTON, District of   DANIEL E. LUNGREN, California
Columbia                             MIKE ROGERS, Alabama
ZOE LOFGREN, California              MICHAEL T. McCAUL, Texas
SHEILA JACKSON LEE, Texas            CHARLES W. DENT, Pennsylvania
HENRY CUELLAR, Texas                 GUS M. BILIRAKIS, Florida
CHRISTOPHER P. CARNEY, Pennsylvania  PAUL C. BROUN, Georgia
YVETTE D. CLARKE, New York           CANDICE S. MILLER, Mississippi
LAURA RICHARDSON, California         PETE OLSON, Texas
ANN KIRKPATRICK, Arizona             ANH ``JOSEPH'' CAO, Louisiana
BEN RAY LUJAN, New Mexico            STEVE AUSTRIA, Ohio
BILL PASCRELL, JR., New Jersey
EMMANUEL CLEAVER, Missouri
AL GREEN, Texas
JAMES A. HIMES, Connecticut
MARY JO KILROY, Ohio
ERIE J.J. MASSA, New York
DINA TITUS, Nevada
VACANCY

                      Lanier Avant, Staff Director
                     Rosaline Cohen, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Conner, Minority Staff Director

                                 ______

  SUBCOMMITTEE ON EMERGENCY COMMUNICATIONS, PREPAREDNESS, AND RESPONSE

                     HENRY CUELLAR, Texas, Chairman

ELEANOR HOLMES NORTON, District of   MIKE ROGERS, Alabama
Columbia                             PETE OLSON, Texas
LAURA RICHARDSON, California         ANH ``JOSEPH'' CAO, Louisiana
BILL PASCRELL, JR., New Jersey       MICHAEL T. McCAUL, Texas
EMMANUEL CLEAVER, Missouri           PETER T. KING, New York (ex 
DINA TITUS, Nevada                   officio)
VACANCY
BENNIE G. THOMPSON, Mississippi, 
(ex officio)

               Veronique Pluviose-Fenton, Staff Director

                      Stephen Vina, Staff Director

                         Daniel Wilkins, Clerk

               Amanda Halpern, Minority Subcommittee Lead

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS


The Honorable Henry Cuellar, a Representative in Congress from 
  the State of Texas, and Chairman, Subcommittee on Emergency 
  Communications, Preparedness, and Response:
  Oral Statement.................................................     1
  Prepared Statement.............................................     4
The Honorable Mike Rogers, a Representative in Congress from the 
  State of Alabama, and Ranking Member, Subcommittee on Emergency 
  Communications, Preparedness, and Response.....................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  from the State of Mississippi, Chairman, Committee on Homeland 
  Security.......................................................    38
The Honorable Anh ``Joseph'' Cao, a Representative in Congress 
  from the State of Louisiana....................................    43
The Honorable Emmanuel Cleaver, a Representative in Congress from 
  the State of Missouri..........................................    43
The Honorable Michael T. McCaul, a Representative in Congress 
  from the State of Texas........................................    45
The Honorable Laura Richardson, a Representative in Congress from 
  the State of California........................................    48
The Honorable Dina Titus, a Representative in Congress from the 
  State of Nevada................................................    53

                               Witnesses

Ms. Janice Ayala, Deputy Assistant Director, Office of 
  Investigations, Immigration and Department of Homeland 
  security:
  Oral Statement.................................................    13
  Prepared Statement.............................................    15
MG Peter Aylward, Director of the Joint Staff, National Guard 
  Bureau:
  Oral Statement.................................................    21
  Prepared Statement.............................................    22
Dr. Richard C. Barth, Acting Assistant Secretary, Office of 
  Policy, U.S. Department of Homeland Security:
  Oral Statement.................................................     8
  Prepared Statement.............................................    10
Sheriff Larry A. Dever, Cochise County, Arizona:
  Oral Statement.................................................    30
  Prepared Statement.............................................    31
Sheriff Sigifredo Gonzalez, Jr., Zapata County, Texas:
  Oral Statement.................................................    23
  Prepared Statement.............................................    26

                             For the Record

The Honorable Janet Napolitano, Secretary, U.S. Department of 
  Homeland Security--Press Release...............................     6
Letter to Hon. Janet Napolitano..................................    52

                                Appendix

Letter:
  To Hon. Henry Cuellar..........................................    57
Questions and Responses:
  Responses from Dr. Richard C. Barth............................    58

 
  EXAMINING PREPAREDNESS AND COORDINATION EFFORTS OF FIRST RESPONDERS 
                       ALONG THE SOUTHWEST BORDER

                              ----------                              


                        Tuesday, March 31, 2009

             U.S. House of Representatives,
         Subcommittee on Emergency Communications, 
                        Preparedness, and Response,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 9:59 a.m., in 
Room 311, Cannon House Office Building, Hon. Henry Cuellar 
[chairman of the subcommittee] presiding.
    Present: Representatives Cuellar, Thompson, Richardson, 
Cleaver, Titus, Rogers, Cao, and McCaul.
    Mr. Cuellar. [Presiding.] The Subcommittee of Emergency 
Communications and Preparedness and Response will come to 
order. The subcommittee meeting today is to receive testimony 
regarding examining preparedness and coordination efforts of 
first responders along the Southwest border.
    Mr. Rogers? As you know, there is another meeting right 
now. There is a caucus meeting on Afghanistan and Pakistan. So 
we will get some of the other members to come and join us after 
a while, but we will go ahead and get started for the witnesses 
so they can go ahead and go on with their day.
    But on behalf of the members of the ubcommittee and the 
chairman also, I mean, the ranking member, let me welcome the 
witnesses from the Office on Policy of Immigration and Customs 
Enforcement, ICE; the Department of Homeland Security; the 
National Guard Bureau, and the sheriffs from my home state of 
Texas and Arizona.
    Today's hearing entitled, ``Examining Preparedness and 
Coordination Efforts of First Responders Along the Southwest 
Border'' is designed to assess the unique challenges that the 
federal, state, local, and tribal first responders face in 
border communities in light of the escalation of the drug 
cartel-related violence along the U.S.-Mexico border.
    Specifically, this hearing is an opportunity to discuss the 
emergency preparedness and response needs specific to the 
Southwest border states including cross-border communications 
and information sharing capabilities and multi-jurisdiction 
partnerships.
    Additionally, this hearing is an opportunity to examine the 
coordination and planning among international, federal, state, 
local, and tribal governments to prevent drug cartels-related 
crimes from spreading into the U.S.
    By now, we have all heard the media reports that describe 
the heinous and brutal violence of the drug cartels in Mexico, 
who have been competing for the control of trafficking routes 
into the United States.
    In the past few years, we have learned of the 
assassinations of high-level government and law enforcement 
officials, horrific murders including beheadings, violent 
kidnappings, use of a growing and varied arsenal of high-power 
weapons, and the indiscriminate killing of civilians.
    What is more disturbing is that in 2008, more than 5,600 
people in Mexico were killed in drug trafficking violence, a 
110 percent increase over 2007. Of that number, 550 of the 
killed were law enforcement officials.
    Although we have been baffled by the battles of the Mexican 
drug cartel, there is a ever-growing concern of a spillover 
into the United States. As a member whose district includes the 
border city of Laredo, Texas, I can tell you that just last 
year, the city of Nuevo Laredo, which lies just across my 
district was gripped in terror at the hands of the cartels.
    Again, you know, working with the local sheriffs, worked 
with the state law enforcement, the Texas National Guard, the 
federal agencies, and of course, we have Janice Ayala and some 
of the folks that worked very hard to establish the BEST 
organization.
    DHS, as you know, got first started on Laredo BEST then 
from there it spread over to the concept across the nation. The 
Laredo does focus on the disruption of cross-border criminal 
activity related to narcotics smuggling, money laundering, 
human and weapons smuggling, transnational gangs and cross-
border violence.
    As a result of this collaboration and coordination, the 
Laredo BEST helped stem the encroaching violence and protect 
our community. Unfortunately, the Mexican drug cartels moved 
their aggressiveness to our other border communities that could 
provide them with access routes to the United States.
    First responders from border communities tell me that the 
demand for drugs from this country, coupled with the illegal 
weapons going into Mexico, fuels the strength of the drug 
cartels in Mexico. But I remain convinced that a collective 
commitment to combat the efforts of those cartels will prevail.
    This is why we must support our first responders, who are 
the nation's first line of defense. Thus coordinating policies 
and procedures at all levels of government to address border 
security and emergency preparedness as complementary--may 
expedite emergency response while improving homeland security 
on both sides of the border.
    That is why I have issued my support for the Merida 
Initiative and the president's major Southwest Security 
Initiative that was announced last week. Our first responders 
need and deserve additional personnel, increased intelligence 
capacity, better coordination and the strategic redeployment of 
the 360 additional officers and agents at the border and in 
Mexico City.
    But I must also state that the only way we can address 
against the greed and the violence of drug cartels is by 
working together as a team. I am disturbed by the reports of 
turf battle among federal agencies that now seek to threaten 
the success of the first responders at the state, local, and 
tribal communities.
    As the great Henry Ford stated, ``Coming together is the 
beginning. Keeping together is progress. Working together is 
success.'' As the chairman of this subcommittee, I will use my 
authority to conduct aggressive oversight that we can stamp out 
this unnecessary turf battles. Simply put, we cannot fight the 
turf battles of Mexican drug cartels if we are distracted by 
the turf battles of our own agencies.
    First responders must put their lives on the line everyday. 
So to them I say, one team, one fight.
    With that, I will look forward to hearing from Dr. Richard 
Barth, the acting assistant secretary from the Office of Policy 
of DHS. Dr. Barth will tell us how DHS is coordinating with 
other federal agencies, state, local, tribal communities, to 
increase the security of our homeland.
    Ms. Janice Ayala, the deputy assistant director of the 
Immigration and Customs Enforcement, ICE, will discuss the 
success of the BEST program and the other efforts of ICE toward 
a collective effort with its multi-jurisdictional partners.
    Major General Peter Aylward, who serves as the director of 
the Joint Staff at the National Guard Bureau will discuss the 
support of the Guard at the Southwest border to carry out 
border security initiatives.
    First witnesses, or the first responders, should I say, our 
final witnesses are our first responders, Sheriff Sigi Gonzalez 
of Zapata County and Sheriff Larry Dever of Cochise County in 
Arizona who will give the committee their perspectives of the 
first responders community along the Southwest border.
    And I certainly want to thank all the witnesses, the 
sheriffs, the National Guard, ICE and, of course, DHS for being 
here with us.
    I look forward to a robust discussion and the exchange of 
specific recommendations on these most-pressing issues, and 
that is one thing that as you all do your 5-minute 
presentations and answer some of the questions, one of the 
things that we will be asking is for suggestions on how we can 
go ahead and coordinate.
    We just finished a classified briefing just, I guess, about 
an hour ago with all the federal agencies, and, you know, they 
are doing a great job, but one of the big questions we had is, 
how do we coordinate first among ourselves the federal 
agencies?
    And then how do we coordinate with the state, and how do 
the four states that we have in the Southwest area, and then 
how do we coordinate with all the sheriffs' departments that we 
have on the border, all the police departments that we have on 
the border?
    And it is a very simple concept, but it is an extremely 
difficult concept to implement.
    But at this time, the chair now recognizes the ranking 
member of the Subcommittee on Emergency Communications, the 
gentleman from Alabama, Mr. Rogers, for an opening statement.

               Opening Remarks of Chairman Henry Cuellar

  Subcommittee on Emergency Communications, Preparedness, and Response

  Examining Preparedness and Coordination Efforts of First Responders 
                       Along the Southwest Border

      March 31, 2009, 10:00 a.m.--311 Cannon House Office Building

    Good morning. On behalf of the Members of the Subcommittee, let me 
welcome the witnesses from the Office and Policy and Immigration and 
Customs Enforcement (ICE) at the Department of Homeland Security (DHS), 
the National Guard Bureau, and the sheriffs of my home state of Texas, 
and Arizona.
    Today's hearing, entitled ``Examining Preparedness and 
Coordination Efforts of First Responders along the Southwest Border,'' 
is designed to assess the unique challenges that Federal, State, local, 
and Tribal first responders face in border communities in light of the 
escalation of drug-cartel related violence along the U.S.-Mexico 
border.
    Specifically, this hearing is an opportunity to discuss the 
emergency preparedness and response needs specific to southwest border 
States, including cross-border communications and information sharing 
capabilities, and multi-jurisdictional partnerships.
    Additionally, this hearing is an opportunity to examine the 
coordination and planning among international, Federal, State, local, 
and tribal governments to prevent drug-cartel related crimes from 
spreading to the United States. By now, we have all heard the media 
reports that describe the heinous and brutal violence of the drug 
cartels in Mexico who have been competing for the control of 
trafficking routes in the United States.
    <bullet> So in the past couple of years, we have learned of the 
assassinations of high-level government and law enforcement officials, 
horrific murders including beheadings, violent kidnappings, use of a 
growing and varied arsenal of high-powered weapons and the 
indiscriminate killing of civilians.
    <bullet> What is most disturbing is that in 2008, more than 5,600 
people in Mexico were killed in drug trafficking violence, a 110% 
increase over 2007. Of that number, 550 of the killed were law 
enforcement officers.
    <bullet> Although we have been buffered by the battles of the 
Mexican drug cartel, there is ever-growing concern of a spillover into 
the United States.
    <bullet> As a member whose district includes the border city of 
Laredo, Texas, I can tell you just last year the city of Nuevo Laredo, 
Mexico--which lies just across my district &ndash; was gripped in 
terror at the hands of the cartels.
    <bullet> But my local sheriff worked with the State law 
enforcement, the Texas National Guard, and Federal agencies as part 
first Border Enforcement Security Taskforce (BEST) established by DHS 
in Laredo, TX.
    <bullet> The Laredo BEST focused on the disruption of cross-border 
criminal activity related to narcotics smuggling; money laundering; 
human and weapons smuggling; transnational gangs; and cross-border 
violence.
    <bullet> As a result of this collaboration and coordination, the 
Laredo BEST helped to stem the encroaching violence and protect our 
community.
    <bullet> Unfortunately, the Mexican drug-cartel moved their 
aggression toward other border communities that could provide them with 
access routes to the United States.
    <bullet> First responders from border communities tell me that the 
demand for drugs from this country, coupled with the illegal weapons 
going into Mexico, fuels the strength of the drug-cartels in Mexico.
    <bullet> But I remain convinced that our collective commitment to 
combat the efforts of the cartels can prevail.
    <bullet> That is why we must support our first responders who are 
the Nation's first line of defense.
    <bullet> Thus, coordinating policies and procedures at all levels 
of government to address border security and emergency preparedness as 
complementary concepts may expedite emergency response while improving 
homeland security on both sides of the border.
    <bullet> That is why I have issued my support for the Merida 
Initiative and the President's ``Major Southwest Border Security 
Initiative'' announced last week.
    <bullet> Our first reporters need and deserve the additional 
personnel, increased intelligence capacity, better coordination and the 
strategic redeployment of 360 additional officers and agents at the 
border and in Mexico City.
    <bullet> But I must state emphatically that the only way we can 
address against the greed and violence of the drug cartels is by 
working together as a team.
    <bullet> I am disturbed by reports of turf battles among Federal 
agencies that now seek to threaten the successes of first responders at 
the State, local, and tribal communities.
    <bullet> As the great Henry Ford stated, ``Coming together is a 
beginning. Keeping together is progress. Working together is success.''
    <bullet> As Chairman of this Subcommittee, I will use my authority 
to conduct aggressive oversight to that we can stamp out these 
unnecessary turf battles.
    <bullet> Simply put, we cannot fight the turf battles of the 
Mexican drug cartels if we are distracted by the turf battles of the 
Federal agencies.
    <bullet> Our first responders put their lives on the line everyday. 
So to them I say, ``One team, one fight!''
    <bullet> With that, I look forward to hearing from Dr. Richard C. 
Barth, the Acting Assistant Secretary for the Office of Policy at DHS. 
Dr. Barth will tell us how DHS is coordinating with other Federal 
agencies, State, local, and Tribal communities to increase the security 
of the homeland.
    <bullet> Ms. Janice Ayala, Deputy Assistant Director at the 
Immigration and Customs Enforcement (ICE), will discuss the success of 
the BEST program and other efforts at ICE to work collective with its 
multi-jurisdictional partners.
    <bullet> Major General Peter Aylward, who serves as the Director of 
the Joint Staff at the National Guard Bureau will discuss the support 
of the Guard at the southwestern border to carry out the border 
security initiatives.
    <bullet> Our final witnesses are our first responders Sheriff 
Sigifredo Gonzalez, Jr. of Zapata County, Texas and Sheriff Larry A. 
Dever, Cochise County, AZ who will give the Committee the perspective 
of the first responder community along the southwestern border.
    <bullet> With that, I thank the witnesses for coming today and I 
look forward to a robust discussion and the exchange of specific 
recommendations to address this most pressing issue.

    Mr. Rogers. Thank you, Mr. Chairman, and I too want to join 
the chairman thanking each and every one of you for taking the 
time out of your busy schedules to be here. It really does help 
us as policymakers to make better policy to have the 
information and the expertise that you are able to share with 
us.
    As the chairman said, today's hearing is to look at 
emergency preparedness from among first responders along the 
Southwest borders with their unique challenges.
    As we all know, drug-related violence along the Southwest 
border is certainly not a new phenomenon, but the intense drug 
war now taking place among the cartels in Mexico demands a 
higher level of awareness and preparedness among federal, 
state, and local law enforcement agencies along the border and 
throughout the United States.
    If drug violence continues to spill over into the U.S. as 
we have seen with murders, home invasions and kidnappings in 
cities like Tucson, Phoenix, Atlanta, and Birmingham, the 
consequences could be devastating to our communities.
    We need to make sure that our first responders have the 
tools they need to deal with these issues. We also need to make 
sure they receive adequate support from the federal government, 
not just in words, but in action.
    During the last Congress, the Committee on Homeland 
Security did not pass a single piece of border security 
legislation, although over 40 bills dealing with border 
security were referred out of this committee, or referred to 
this committee.
    It is important to look at what more Congress can do to 
ensure that agencies charged with this important mission have 
enough resources and authority to gain control of the border 
and combat rising threats.
    Last week Secretary Napolitano announced the Department of 
Homeland Security's new strategy to combat drug violence and 
crack down on Mexican cartels. While it is an important first 
step, there are many unanswered questions. For example, when 
the secretary testified before our committee in February, I 
talked with her about the need to increase the number of ICE 
agents.
    [Information follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Unfortunately, under the new Southwest Border Strategy, the 
Department is not planning to hire new ICE personnel in order 
to deal with the rising drug violence. Instead, the Department 
wants to realign funds from ``less urgent activities.''
    It has not been made clear which offices or programs will 
be affected, and I am concerned that the Administration's 
approach will pull agents and officers away from other 
important assignments.
    I look forward to hearing today from Rich Barth and Janice 
Ayala. I hope I pronounced that right on the Department's 
efforts to partner with State and Local enforcement along the 
border to achieve common goals and how these relationships can 
be improved.
    I also look forward to testimony by Major General Aylward 
on the National Guard's counterdrug operations throughout the 
States, and finally, I want to hear from Sheriff Gonzalez and 
Sheriff Dever on the threats and challenges you face and how 
the Federal government can be a stronger partner in combating 
the escalating drug violence along our border.
    And with that, I yield back, Mr. Chairman.
    Mr. Cuellar. Thank you, Mr. Rogers. And again, to all 
members of the subcommittee is a reminder that under the 
committee rules, opening statements may be submitted for the 
record.
    At this time, I would welcome the panel of witnesses, and 
our first witness will be Dr. Richard Barth, who is the acting 
assistant secretary for the Office of Policy at the Department 
of Homeland Security.
    So, Mr. Barth?

STATEMENT OF DR. RICHARD C. BARTH, ACTING ASSISTANT SECRETARY, 
       OFFICE OF POLICY, DEPARTMENT OF HOMELAND SECURITY

    Dr. Barth. Thank you, Chairman Cuellar and Ranking Member 
Rogers and members of the committee.
    On behalf of the Obama administration and Department of 
Homeland Security, Secretary Napolitano, thank you for the 
opportunity to testify before you about the preparedness and 
coordination efforts with first responders along the Southwest 
border.
    As you all know, the Department of Homeland Security and 
the Obama administration are greatly concerned about the 
increased level of cartel-related violence in Mexico and its 
impact on communities on both sides of the border. That is why 
the U.S.-Mexico relationship is getting sustained, high-level, 
and comprehensive attention.
    Our department has undertaken a proactive response on both 
sides of the border to fully support the Mexican government's 
campaign against the violent cartels and reduce the flow of 
contraband across the border in both directions.
    State, local, and tribal first responders along the 
Southwest border have significant roles to play both in dealing 
with the current violence and preparing for scenarios where 
violence in Mexico could directly impact the United States in 
the future.
    First responders have dealt with border crime and related 
issues for their entire careers. The successful mitigation of a 
complex and multi-faceted threat like border violence means 
that DHS and other federal agencies must constantly collaborate 
and coordinate with our state, local and tribal allies in an 
effort to share resources and information.
    The Department's Office for State and Local Law Enforcement 
led by Assistant Secretary Ted Sexton coordinates DHS policies 
with more than 730,000 first responders across the nation.
    Assistant Secretary Sexton has been directed by Secretary 
Napolitano to ensure that the state, local and tribal 
enforcement officials have a seat at the table when it comes to 
the development and implementation of programs and policies 
like those currently impacting the Southwest border.
    The capabilities of state, local and tribal first 
responders to deal with cartel-related violence are 
substantial, and DHS works collaboratively with both state and 
local governments in a number of ways. The Department created 
the Border Enforcement Security Task Forces. We call them 
``BEST teams,'' which are led by ICE.
    The 12 BESTs that currently exist, of which eight are 
located on the Southwest border, include the participation of 
DHS and other federal, state, local and tribal law enforcement 
agencies. These law enforcement participants play a critical 
role in the BEST model by providing boots-on-the-ground 
intelligence and operational knowledge on a daily basis.
    In terms of grant funding, last week Secretary Napolitano 
announced that DHS would change the grant guidance for our 
remaining balances in the Operation Stonegarden Grant Pool. We 
modified the program to focus up to 59 million still available 
in Operation Stonegarden funding to enhance the operational 
readiness and asset capabilities of law enforcement along the 
Southwest border.
    We will also expand the use of Stonegarden funds to pay for 
additional law enforcement personnel overtime. Travel and other 
related expenses for deployment of state, local, and tribal 
officials to the border.
    DHS is participating in numerous initiatives that will 
increase the capability of first responders to communicate 
effectively both along the Southwest border and with their 
counterparts across the border in Mexico.
    The DHS Office of Emergency Communications is in the 
process of developing the congressionally mandated Border 
Interoperability Demonstration Projects, which seek to improve 
interoperable communications in no fewer than six border 
communities.
    DHS is working tirelessly to create open lines of 
communication and information sharing along the Southwest 
border. DHS assistant secretary for state, local and law 
enforcement, Ted Sexton, recently traveled from Brownsville, 
Texas to San Diego, California over 11 days to meet with 
Southwest border first responders and discuss their concerns 
about border violence and related DHS programs and policies.
    During the course of this trip, Assistant Secretary Sexton 
met with over two dozen border police chiefs and sheriffs, all 
of which indicated they are willing to fully cooperate and 
collaborate to respond to ongoing border violence and crime.
    The secretary's office is also coordinating regular 
conference calls with Southwest border law enforcement 
officials including members of the Southwest Border Sheriff's 
Coalition and representatives of DHS components including ICE.
    These conference calls create a two-way flow of border-
related intelligence by providing state, local and tribal 
officials with the opportunity to discuss critical Southwest 
border issues and receive briefings from department components 
on relevant programs and policies.
    Finally, I would close with a few brief words on the highly 
successful El Paso Intelligence Center referred to as EPIC. 
EPIC is a fully coordinated tactical intelligence center 
supported by databases and resources from member agencies, 
which include Homeland Security, the El Paso Sheriff's Office, 
the Texas Department of Homeland Security, the ICE and other 
components of DHS.
    The state and local first responders embedded within EPIC 
make tremendous contributions to the many intelligence-led 
operational initiatives that EPIC facilitates along the 
Southwest border. In closing, DHS is fully engaged and focused 
on ensuring that the local, state, and tribal first responders 
have the necessary resources to respond to crime and violence.
    Clearly, no single entity can defeat this threat alone. As 
spillover violence from Mexico ultimately occurs, state, local 
and tribal first responders will be our first line of defense.
    I thank you for your continued support of DHS programs and 
policies, and I would be happy to answer your questions after 
the opening presentations.
    [The statement of Dr. Barth follows:]

               Prepared Statement of Dr. Richard C. Barth

Introduction
    Chairman Cuellar, Ranking Member Rogers and distinguished members 
of the Committee. Thank you for the opportunity to testify before you 
today about the preparedness and coordination efforts of first 
responders along the Southwest Border (SWB).
    As you all know, the Department of Homeland Security (DHS) and the 
Obama Administration as a whole are greatly concerned about the 
increased level of cartel-related violence in Mexico and its impact on 
communities on both sides of the border. That's why the U.S.-Mexico 
relationship is receiving sustained, high-level and comprehensive 
attention. Prior to his inauguration, President Obama met with 
President Calderon. Admiral Mullen visited Mexico on March 5th and 6th. 
Secretary of State Clinton visited Mexico last week, and Secretary 
Napolitano will visit at the end of this week with Attorney General 
Holder, all ahead of the President's trip to Mexico on April 16th and 
17th.
    The daily reporting on drug-related violence in Mexico may make us 
feel familiar with the situation, but we will not let familiarity breed 
complacency. The magnitude and severity of the violence in places like 
Ciudad Juarez has overwhelmed local police forces and spurred President 
Calderon to deploy over 7,000 Mexican troops to this city that sits 
just a stone's throw away from El Paso, Texas. Our Department has 
undertaken a proactive and comprehensive response on both sides of the 
border to fully support the Mexican government's campaign against the 
violent cartels and reduce the flow of contraband across the border in 
both directions.

State and Local First Responders: The Need for Partnership
    In order for this comprehensive response to be successful in the 
long run, the United States government must support the efforts of 
State, local, and tribal first responders along the Southwest Border. 
They have significant roles to play both in dealing with the current 
violence and preparing for scenarios where violence in Mexico could 
directly impact the United States homeland in the future.
    While violence in the Southwest United States has not increased 
markedly since the brutal drug wars began in Mexico, other border-
related criminal activity continues to confront State, local, and 
tribal first responders in the region, who remain concerned about the 
potential for spillover violence in the future. First responders at the 
State, local and tribal level have dealt with border crime and related 
issues for their entire careers. They are the ``boots on the ground'' 
that possess deep operational knowledge of the border region and its 
unique social, cultural and geographical intricacies. The successful 
mitigation of such a complex and multifaceted threat like border 
violence means that DHS and other Federal agencies must constantly 
collaborate and coordinate with our State, local, and tribal allies in 
an effort to share resources and information whenever necessary.

DHS Office for State and Local Law Enforcement
    The Department's Office for State and Local Law Enforcement, led by 
Assistant Secretary Ted Sexton, coordinates DHS policies with the more 
than 730,000 State and local first responders across the nation. 
Assistant Secretary Sexton has been directed by Secretary Napolitano to 
ensure that State and local law enforcement officials have a seat at 
the table when it comes to the development and implementation of 
programs and policies like those currently impacting the Southwest 
Border.

State and Local First Responders: Capabilities
    The capabilities of State, local and tribal first responders to 
deal with cartel-related violence along the Southwest Border are 
substantial and DHS will continue to support these vital assets. I will 
discuss several of these capabilities and associated DHS support in 
greater detail.

Border Enforcement Security Task Forces (BEST)
    Although I understand that my colleague, Deputy Assistant Director 
Ayala, will be focusing on BESTs in her testimony, I would still like 
to take a moment to touch on the critical role that State, local, and 
tribal first responders play in these task forces. As you know, BEST is 
not just a program, it is also an innovative model for collaborative 
law enforcement that has delivered substantial results. The BEST 
program coordinates with the Department of Justice and its initiatives 
such as Project Gunrunner and the Organized Crime Drug Enforcement Drug 
Task Force to ensure a unified approach to the problems along the 
border. Since July 2005, the BESTs have been responsible for a number 
of criminal and administrative arrests, indictments and convictions. 
BESTs utilize a comprehensive approach towards dismantling the cross-
border criminal organizations that exploit our border and utilize that 
information to eliminate the top leadership and the supporting 
infrastructure that sustains these often violent organizations. The 12 
BESTs that currently exist (of which eight are located on the Southwest 
Border) include the participation of Immigration and Customs 
Enforcement (ICE), Customs and Border Protection (CBP), the U.S. Coast 
Guard, the DHS Office of Intelligence and Analysis, the Bureau of 
Alcohol, Tobacco and Firearms (ATF), the Drug Enforcement Agency (DEA), 
the Federal Bureau of Investigation (FBI), and State, local, and tribal 
law enforcement agencies. These State, local, and tribal law 
enforcement participants play a critical role in the BEST model by 
providing essential ``boots on the ground'' intelligence and 
operational knowledge on a daily basis. Additionally, my colleague, 
Deputy Assistant Director Ayala will discuss Operation Armas Cruzadas, 
which is an important complement to the BEST initiative.
    We at DHS firmly believe that reinforcing the highly successful 
BEST model will greatly enhance our ability to deal with the root 
causes of cartel-related violence along the Southwest Border. Just last 
week, Secretary Napolitano announced that DHS would be doubling the 
number of BEST teams that incorporate Federal, State, local and tribal 
law enforcement and intelligence officers. This will greatly expand our 
capacity to collaborate with State, local, and tribal law enforcement 
to combat cartel-related crime that occurs on the U.S. side of the 
border.

Operation Stonegarden
    In terms of grant funding, last week, Secretary Napolitano also 
announced that DHS will change the grant guidance for our remaining 
balances in the Operation Stonegarden grant pool. We modified the 
program last week to focus $59 million available in Operation 
Stonegarden funding to enhance the operational readiness and asset 
capabilities of State, local and tribal law enforcement along the 
Southwest Border.
    And we will expand the scope of Operation Stonegarden funds to pay 
for additional law enforcement personnel overtime, travel and other 
related expenses for deployment of State, local, and tribal officials 
to the border.
    Started in 2004, Operation Stonegarden supports U.S. border States 
and territories in increasing their capability to prevent, protect 
against, and respond to border security issues. The program has made 
funds available to more than 200 agencies in areas adjacent to either 
the Canadian and Mexican borders to enhance their border security 
operations. In the past, funds have been used to support overtime and 
per diem costs, and to purchase equipment such as night vision 
technology and observation equipment to enhance security operations on 
the border in areas close to Border Patrol operations. Participation in 
the program allows agencies to enhance their traditional law 
enforcement missions. The recently-announced funding flexibilities will 
ensure that State, local, and tribal first responders are equipped with 
the resources they need to confront the complex and dynamic challenges 
that exist along the Southwest Border.
    In addition, we are engaging State, local, and tribal law 
enforcement in ways that haven't been done previously. DHS is 
coordinating regular conference calls with Southwest Border law 
enforcement officials and representatives from DHS components. These 
conference calls create a two-way flow of border-related intelligence 
by providing State, local, and tribal officials with the opportunity to 
discuss critical Southwest Border issues and receive briefings from 
Departmental components on relevant programs and policies. This 
increased engagement will help arm State and local first responders 
with the best information available.

Emergency Communications with Mexico
    DHS is currently participating in numerous initiatives that will 
increase the capability of State, local, and tribal first responders to 
communicate effectively both along the Southwest Border and with their 
counterparts across the border in Mexico. Specifically, the DHS Office 
of Emergency Communications (OEC) is in the process of developing the 
Congressionally-mandated Border Interoperability Demonstration Project 
(BIDP). The BIDP seeks to improve interoperable communications in no 
fewer than six U.S. border communities, at least three of which will be 
located on the southern border. Although still in the planning phases, 
the Demonstration Project will ultimately function as a competitive 
selection grant program for State, local, and tribal communities in 
border areas to improve their communications capabilities.
    Additionally, OEC co-chairs the Security Communications Task Group 
(SCTG) for the U.S.-Mexico High-Level Consultative Commission (HLCC) on 
Telecommunications. The SCTG is a joint U.S.-Mexico effort to address 
cross border communications among emergency responders. In May 2008, 
HLCC principals agreed to an Action Plan which directs OEC to lead the 
U.S. development and implementation of a Cross Border Security 
Communications network. This network will enable emergency responders 
to share video surveillance streams, conduct joint operations 
teleconferencing and securely exchange fingerprints and photographs. 
OEC is also leading a domestic working group of first responders that 
is examining different communications equipment that may be effective 
along the Southwest Border. The successful implementation of these 
initiatives will help ensure that State and local first responders have 
the ability to communicate with one another during critical incidents 
along the Southwest Border.

Increased Engagement with Southwest Border State, Local, Tribal Law 
Enforcement
    DHS is also working tirelessly to create open lines of 
communication and information sharing with our State, local, and tribal 
partners along the Southwest Border. In fact, DHS Assistant Secretary 
for State and Local Law Enforcement Ted Sexton recently traveled from 
Brownsville, Texas to San Diego, California to meet with Southwest 
Border first responders and discuss their concerns about border 
violence and related DHS programs and policies. During the course of 
his two-week trip, Assistant Secretary Sexton met with over two dozen 
border police chiefs and sheriffs, all of whom indicated that they are 
willing to fully cooperate and collaborate to respond to ongoing 
border-related crime and violence.

El Paso Intelligence Center (EPIC)
    Located in El Paso, Texas, EPIC was established in 1974 in an 
effort to improve drug-and border-enforcement operations along the 
Southwest Border. Initially comprised of representatives from the U.S. 
Customs Service, U.S. Immigration and Naturalization Service (now 
United States Citizenship and Immigration Services, Customs and Border 
Protection and Immigration and Customs Enforcement) and the Drug 
Enforcement Agency (DEA), EPIC is now staffed with over 300 personnel 
and liaison staff from 15 Federal, State and local agencies. The State 
and local agencies embedded at EPIC include the El Paso Sheriff's 
Office and Texas Department of Homeland Security. Through the years, 
EPIC has evolved into a fully coordinated, tactical intelligence center 
supported by databases and resources from its member agencies. The 
State and local first responders embedded within EPIC make tremendous 
contributions to the numerous intelligence-led operational initiatives 
that EPIC helps to facilitate along the Southwest Border. Additionally, 
EPIC disseminates tactical bulletins (including officer safety alerts) 
to first responders along the Southwest Border and across the country. 
The intelligence center is also home to a State and local liaison group 
that organizes criminal interdiction training. To further assist State, 
local, and tribal law enforcement along the Southwest Border, DHS 
created the Homeland Intelligence Support Team (HIST) at EPIC in 2007. 
The goal of the HIST is to improve information sharing among Federal 
agencies and with State, local, and tribal partners.

Conclusion
    In closing, DHS is fully engaged and focused on ensuring that our 
State, local, and tribal first responders have the necessary resources 
to successfully respond to border-related crime and violence along the 
Southwest Border. These officials have unequivocally indicated their 
willingness to partner with each other and DHS. Clearly, no single 
entity can defeat this threat alone. If spillover violence from Mexico 
ultimately occurs, State, local, and tribal first responders will be, 
as the name suggests, our first line of defense. As indicated in my 
testimony, our State and local partners have existing capacity to 
respond effectively along the Southwest Border. The recent increases in 
funding, personnel and programmatic support to the Southwest Border 
will reinforce this capacity in vital way. I remain confident that DHS 
and the Federal family can successfully confront the cartel-related 
violence through a successful partnership with these brave men and 
women who risk their lives on a daily basis to secure our homeland.
    Thank you for your continued support of DHS programs and policies. 
I would be happy to answer any questions you might have at this time.

    Mr. Cuellar. Without objection, the witness's full 
statement will be inserted into the record. And, of course, 
each of you all are summarizing your statements. I want to 
thank Dr. Barth.
    At this time, our second witness is Ms. Janice Ayala, 
deputy assistant director of the Office of Investigations at 
United States Immigration and Customs Enforcement at the 
Department of Homeland Security.
    Welcome, Ms. Ayala.

STATEMENT OF JANICE AYALA, DEPUTY ASSISTANT DIRECTOR, OFFICE OF 
  INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT (ICE), 
                DEPARTMENT OF HOMELAND SECURITY

    Ms. Ayala. Thank you. Good morning, Chairman Cuellar, 
Ranking Member Rogers and distinguished members of the 
subcommittee.
    On behalf of Secretary Napolitano and Acting Assistant 
Secretary Torres, I would like to thank you for the opportunity 
to discuss ICE's longstanding relationship with their law 
enforcement partners and our collective response to cross-
border crimes.
    Recognizing that partnerships are essential, ICE works 
closely across agency and international boundaries to provide 
effective cross-border communications, information sharing and 
emergency preparedness.
    ICE augments first responder assets on the Southwest border 
by deploying the largest force the Department of Homeland 
Security investigators. To ensure we are prepared to support 
first responders, ICE established a national incident response 
unit, which ensures ICE law enforcement programs coordinate 
their response during civil emergencies.
    Last week, Secretary Napolitano announced several Southwest 
border initiatives aimed at cracking down on Mexican drug 
cartels. The administration's plan starts with additional 
personnel, increased intelligence capability and increased 
coordination with state, local, and Mexican law enforcement 
authorities.
    Specifically, ICE will double assignments to the Border 
Enforcement Security Task forces known as BEST, and increase 
its Mexico attache personnel by 50 percent. Moreover, ICE will 
quadruple the number of designated border liaison officers and 
continue Operation Armas Cruzadas aimed at thwarting the export 
of arms from the Mexico into United States.
    BEST task forces are the DHS platforms that provide the 
most direct support to state and local first responders. In 
July of 2005, in response to increased violence in Nuevo 
Laredo, Mexico and Laredo, Texas area, ICE, CBP, Mexican, 
federal and other law enforcement entities created an 
international multi-agency initiative dubbed Operation 
Blackjack. This successful concept was later formalized to 
create the BEST.
    I would like to share with you an example of a recent 
support to law enforcement by BEST. On February 6, 2009, two 
Department of Public Safety officers stopped a vehicle for a 
traffic violation near Laredo, Texas. While one of the troopers 
approached the vehicle, the driver accelerated in reverse and 
attempted to run him over.
    A high-speed chase ensued and ended in the Rio Grande River 
where the driver waded across the border to Mexico. Texas DPS 
requested the assistance of Laredo BEST in locating the driver, 
whose vehicle contained nearly 900 pounds of marijuana. The 
BEST coordinated with Mexican officials to locate the driver, 
and within hours, the driver, a U.S. citizen, was detained by 
Mexican officials and turned over to Laredo BEST and to Texas 
DPS officers.
    Through BEST, we have dismantled arms trafficking, human 
trafficking, bulk cash smuggling, arms and narcotics smuggling 
organizations and their hostage taking and murder and 
kidnapping cells in the United States and Mexico.
    Since July of 2005, BESTs have been responsible for over 
2,034 criminal arrests, and in addition, they seized over 
169,000 pounds of narcotics, 515 weapons, 341,000 rounds of 
ammunition and nearly $23 million in U.S. currency and monetary 
instruments.
    The magnitude of violence surrounding these transnational 
smuggling organizations necessitated the merging of legal 
authorities and expertise in multiple law enforcement and 
intelligence entities through task forces such as the BEST and 
outbound operations such as our weapons Outbound Operations 
Initiative, Operation Amas Cruzadas, and our bulk cash 
smuggling initiative Operation Firewall.
    In June of 2008, ICE officially launched Operation Amas 
Cruzadas to combat criminal networks smuggling weapons from the 
United States into Mexico. To that end, the U.S. and Mexico 
synchronize interdiction, investigation, and intelligence 
sharing activities aimed at dismantling weapons smuggling 
networks on both sides of the border.
    Since 2008 Operation Amas Cruzadas has resulted in over 112 
arrests and the seizure of over 1,400 weapons and 116,000 
rounds of ammunition. One of the most effective methods to deal 
with violent transnational criminal organizations is attacking 
the criminal proceeds of--operations.
    ICE targets individuals and organizations that exploit 
vulnerabilities and financial systems to launder a list of 
proceeds. The combination of successful investigations, banking 
regulations, and stringent laws has forced criminal 
organizations to seek other means to transport their list of 
funds across our borders.
    One of the means is a smuggling of bulk cash currency out 
of the United States, specifically, along Southwest border. 
ICE's Operation Firewall, in which we partner with CBP, Office 
of International Affairs, and state and local officers combats 
this threat, and since inception has resulted in over 423 
arrests, seized over $183 million, 62 million of that has been 
seized overseas and, specifically 38 million in Mexico.
    ICE is committed to effective cross-border communications 
and information sharing to standby national criminal activity 
and its associated violence through the deployment of BEST, 
Operation Amas Cruzadas and Operation Firewall.
    By partnering with other law enforcement agencies, we are 
able to use a broad range of authorities including the more 
sophisticated and investigative tools to respond to and conduct 
our investigation.
    I would like to thank the subcommittee for its confirmed 
support of ICE, its continued support of ICE and our law 
enforcement missions and would be happy to answer any questions 
that you may have at this time.
    [The statement of Ms. Ayala follows:]

                   Prepared Statement of Janice Ayala

Introduction
    Chairman Cuellar, Ranking Member Rogers, and distinguished Members 
of the Subcommittee:
    On behalf of Secretary Napolitano and Acting Assistant Secretary 
Torres, I would like to thank you for the opportunity to discuss U.S. 
Immigration and Customs Enforcement's (ICE) long-standing partnerships 
with our state and local law enforcement partners who, along with other 
federal agencies, respond to cross-border crimes. Recognizing that 
partnerships are essential, ICE works closely across agency and 
international boundaries with our law enforcement partners to create a 
multi-layered law enforcement network, which provides effective cross-
border communication, information sharing, and emergency preparedness. 
While ICE does not traditionally perform the functions of a state or 
local police officer, who responds to a myriad of crimes on a daily 
basis, ICE materially augments first responder resources on the 
Southwest Border by deploying the largest force of investigators in the 
Department of Homeland Security (DHS). These investigators utilize 
expansive investigative authority to target criminal organizations 
engaged in the bi-lateral smuggling of people, narcotics, bulk cash, 
and weapons that threaten the well-being of the United States.
    To ensure ICE is prepared to support first responders, ICE 
established the National Incident Response Unit (NIRU). This unit, 
working in conjunction with the National Response Framework, Emergency 
Support Function (ESF)--13, responds in an efficient and coordinated 
way that addresses preparedness, prevention, and recovery during civil 
emergencies. NIRU develops, enhances, and oversees programs, policies 
and initiatives to focus ICE's emergency preparedness, management and 
response efforts and continuity of operations planning.This includes 
ICE's support to ESF-13 and our law enforcement partners who respond to 
unexpected disasters such as avian and pandemic influenza and 
hurricanes. In 2008, ICE supported response and recovery efforts during 
the hurricanes that struck New Orleans and Houston. ICE also provided 
law enforcement support for National Special Security Events, such as 
the 2009 Presidential Inauguration. In addition, ICE partners with the 
Department of Homeland Security's U.S. Customs and Border Protection 
(CBP) personnel who are often first responders themselves. ICE's 
investigative mission is directly linked to CBP's border protection and 
interdiction mission, and ICE augments CBP's effort through 
investigative, transportation, and public safety support. Another 
example of ICE's support of first responders is ICE's Law Enforcement 
Agency Response (LEAR) program. Established in September 2006 to 
provide a more comprehensive response to Arizona law enforcement 
agencies seeking assistance from ICE during encounters with suspected 
illegal aliens, the LEAR unit received 1,283 calls for assistance and 
arrested 6,235 illegal aliens last year.
    As you may know, on March 24, 2009, the Administration announced 
several Southwest Border initiatives aimed at cracking down on Mexican 
drug cartels through enhanced border security. The Administration's 
comprehensive plan calls for additional personnel, increased 
intelligence capability, and increased coordination with state, local 
and Mexican law enforcement authorities. Specifically, Secretary 
Napolitano announced that ICE will double assignments to ICE's Border 
Enforcement Security Task Forces (BEST) from 95 agents to 190. ICE is 
also increasing ICE AttachE personnel in support of Mexican law 
enforcement efforts and ICE's BEST efforts from 24 to 36 agents. 
Moreover, ICE will quadruple the number of agents designated as Border 
Liaison Officers, from 10 to 40 personnel who work to create 
cooperative relationships between U.S. and Mexican law enforcement 
authorities. In addition, DHS will continue Operation Armas Cruzadas, 
an ICE-led bi-lateral law enforcement and intelligence-sharing 
operation to thwart export of arms from the U.S. into Mexico. These DHS 
task forces include important partners such as Customs and Border 
Protection (CBP), Alcohol, Tobacco, Firearms and Explosives (ATF) and 
other foreign, federal, state and local task force offices. When it 
comes to countering the illicit weapons trade in particular, we closely 
coordinate our efforts with ATF, as they possess long-standing 
expertise in gun trafficking investigations and in engagement with 
Federal Firearms Licensees.

Border Enforcement Security Task Force (BEST)
    While ICE is generally not a first responder, the BEST task forces 
are the DHS operational platform that provides the most direct support 
to state and local first responders. In July 2005, in response to 
increased violence in Nuevo Laredo, Mexico and Laredo, Texas, ICE, CBP, 
the Drug Enforcement Administration (DEA), and other federal, state, 
and local law enforcement agencies, including Mexican agencies, 
expanded the ongoing Border Crimes Initiative by creating an 
international, multi-agency initiative called Operation Black Jack. 
This initiative used the respective authorities and resources of its 
members to dismantle cross-border criminal organizations. In its first 
six months, its target-driven focus led to the dismantling of a murder/
kidnapping cell operating on both sides of the border, including the 
seizure of high-powered fully automatic weapons and live grenades; the 
components to make over 100 improvised explosive devices (IEDs), such 
as pipe bombs and grenades; and over $1 million in U.S. currency.
    Crucial to our success is the cooperation of our international 
partners. The BESTs on the Southwest Border have secured the 
participation of the Mexican law enforcement agency, Secretaria de 
Seguridad Publica (SSP). Through the interaction and coordination of 
all the member agencies, BESTs provide for immediate and international 
enhanced information sharing on border violence due to geographic 
proximity to the U.S. borders.
    Through BESTs, we have dismantled arms trafficking, human 
trafficking, bulk-cash, alien and narcotics smuggling organizations and 
their hostage-taking and murder/kidnapping cells in the United States 
and Mexico. Since July 2005, BESTs' efforts have resulted in 2,034 
criminal arrests and 2,796 civil immigration arrests. The U.S. 
Attorneys Offices have worked with ICE to secure more than 800 
indictments, and more than 700 convictions. In addition, BESTs have 
seized approximately 7,704 pounds of cocaine, 159,832 pounds of 
marijuana, 558 pounds of methamphetamine, 39 pounds of crystal 
methamphetamine, 1,023 pounds of ecstasy, 213 pounds of heroin, 97 
pounds of hashish, 22 pounds of opium, 515 weapons, 341,345 rounds 
ammunition, 745 vehicles, six properties, and $22.7 million in U.S. 
currency and monetary instruments.
    I would like to share a few of our successes with you: the 
discovery and repatriation by the El Paso BEST of one of Mexico's top 
ten most wanted fugitives; the arrest by the Laredo BEST of a weapons 
trafficker who supplied cartels with assault rifles used to murder 
Mexican Police Officer Navarro Rincon and others; and the arrest by the 
Los Angeles Seaport BEST of an arms trafficker and seizure of 38 
military style weapons. These cases clearly illustrate the violence 
that results from narcotics trafficking, weapons smuggling, alien 
smuggling, human trafficking, and money laundering at our borders. 
BESTs provide a unified and international response to securing our 
borders, stemming the violence, and assisting first responders.
    I would also like to share with you an example of how our foreign 
partnerships and information sharing benefits ICE, as well as front 
line officers from the Texas Department of Public Safety (DPS). On 
February 6, 2009, a Texas DPS trooper conducted what he thought was a 
routine vehicle stop of a Ford F-250 truck near Laredo, Texas. When the 
trooper stepped out of his patrol car and began walking towards the 
truck, the driver, Lino ZAMORA, placed the truck in reverse and 
attempted to run the trooper over. Fortunately, the trooper was not 
injured, and a high speed chase ensued ending by the Rio Grande river 
banks near the World Trade Bridge where ZAMORA waded into the river and 
into Nuevo Laredo, Tamaulipas, Mexico. Texas DPS officers requested 
immediate assistance from the Laredo BEST indicating they had 
discovered 897 pounds of marijuana hidden inside the truck and that the 
driver, ZAMORA, absconded to Mexico.
    The Laredo BEST, which has a Mexican law enforcement officer 
embedded in the task force, coordinated with the Mexican Military and 
Immigration Officials to locate ZAMORA, who was hiding in Nuevo Laredo, 
Mexico. Mexican military officers located ZAMORA, a United States 
Citizen, and turned him over to Mexican Immigration officials. These 
officials then turned ZAMORA over to Laredo BEST agents without 
incident. Texas DPS officers arrested ZAMORA for possession of 
marijuana and assault on a peace officer. Just after 10:00 a.m., ZAMORA 
fled from the Texas DPS officer, and at 3:30 p.m. he returned and was 
arrested in the United States.
    Although we have had significant success in dismantling 
transnational smuggling organizations, they have proven to be flexible, 
wealthy, well-organized, and intelligent. While the contraband the 
organizations smuggle may vary, these organizations use the same 
smuggling corridors to further their enterprise. Cartels invest 
significant resources in gaining and maintaining control of these 
lucrative smuggling corridors, expecting a considerable financial 
return from smuggling ventures and from user fees paid by other 
transnational smuggling organizations. To protect these lucrative 
corridors, cartels hire assassins to kidnap, torture and murder 
competitors that they perceive to infringe upon their territory.
    The magnitude of violence surrounding these transnational smuggling 
organizations in recent years necessitated expertise of multiple law 
enforcement and intelligence entities through task forces such as the 
ICE-led BEST, and law enforcement outbound operations such as our 
weapons smuggling initiative, Operation Armas Cruzadas, and our bulk 
cash smuggling initiative, Operation Firewall.
    As I have noted, ICE plays several roles varying from assisting 
federal, state, and local front line officers in emergency situations 
to coordinate bi-national efforts beyond our borders. ICE has agents in 
attach&eacute; offices in embassies and consulates worldwide, as well 
as foreign law enforcement officers such as Mexico's Secretaria de 
Seguridad Publica, co-located within our Border Enforcement Security 
Task Forces in the United States.

Armas Cruzadas
    As I mentioned previously, ICE is focused on the illicit flows of 
weapons and bulk cash to reduce border violence through our ``Armas 
Cruzadas'' initiative.
    In June 2008, ICE, in partnership with CBP, formally launched 
Operation Armas Cruzadas to combat transnational criminal networks 
smuggling weapons into Mexico from the United States. As part of this 
initiative, the United States and the Government of Mexico (GoM) agreed 
to bi-lateral interdiction, investigation, and intelligence-sharing 
activities to identify, disrupt, and dismantle these networks engaged 
in weapons smuggling. This initiative has resulted in actionable 
intelligence leading to arrests, as well as the seizure of firearms and 
ammunition on both sides of the border. ICE has provided training in 
appropriate export and other weapons' laws and methods used to combat 
transnational smuggling; used its Project Shield America outreach 
program and made presentations to groups involved in the manufacture, 
sale or shipment of firearms and ammunition along the Southwest Border; 
reinvigorated the ICE Border Liaison Program to sustain an open and 
cooperative working relationship with foreign and domestic government 
entities; initiated a Weapons Virtual Task Force to create virtual 
communities where law enforcement can rapidly share intelligence and 
communicate in a secure environment; created a U.S.-vetted GoM Arms 
Trafficking Group; and used the ICE Border Violence Intelligence Cell. 
In addition, ICE recognizes the need to coordinate with ATF, the agency 
with principal firearms enforcement responsibility, in its efforts to 
slow the flow of firearms into Mexico. On this front, ICE will 
coordinate its Armas Cruzadas Initiative with ATF's Project Gunrunner.
    Since June 2008, Operation Armas Cruzadas has resulted in 112 
criminal arrests, 40 administrative arrests, 80 criminal indictments, 
43 convictions and in the seizure of 1,417 weapons and 116,478 rounds 
of ammunition.

Operation Firewall
    One of the most effective methods to deal with violent, 
transnational criminal organizations is attacking the criminal proceeds 
that fund their operations. Well financed criminal organizations 
present a threat to all law enforcement as their use of high-powered 
firearms presents a real danger to first responders. ICE targets those 
individuals and organizations that exploit vulnerabilities in financial 
systems to launder illicit proceeds, and ICE pursues the financial 
component of every cross-border criminal investigation. The combination 
of successful financial investigations, Bank Secrecy Act reporting 
requirements, and Anti-Money Laundering compliance efforts by 
traditional and non-traditional financial institutions has forced 
criminal organizations to seek other means to transport illicit funds 
across our borders. Currently, the smuggling of bulk currency out of 
the United States, especially along the Southwest Border, is the 
prevailing method. ICE is the primary investigative agency with 
jurisdiction over bulk cash smuggling crimes. Since its inception, 
Operation Firewall has resulted in the seizure of over $183 million, 
including $62 million seized overseas, and 423 arrests.

Conclusion
    ICE is committed to effective cross-border communication and 
information sharing to stem bi-national criminal activity and 
associated violence through the deployment of the BESTs, Operation 
Armas Cruzadas and Operation Firewall. By partnering with other law 
enforcement agencies, we are able to use a broad range of authorities, 
including the most sophisticated investigative tools available, such as 
certified undercover operations and electronic surveillance operations 
to respond to and conduct our investigations.
    Once again, I would like to thank the Subcommittee for its 
continued support of ICE and our law enforcement mission. I would be 
happy to answer any questions that you may have at this time.

                               ATTACHMENT

                  Operation Armas Cruzadas Fact Sheet

    The mission of Armas Cruzadas is for U.S. and Mexican government 
agencies to synchronize bi-lateral law enforcement and intelligence-
sharing operations in order to comprehensively identify, disrupt and 
dismantle trans-border weapons smuggling networks. The goals include:
         Establishing a bilateral program to stop weapons smuggling
         Coordinating operations
         Developing intelligence about arms trafficking networks
         Strengthening interagency cooperation
         Promoting intelligence information exchange
         Implementing points of contact for information exchange
         Partnership Roles and Responsibilities

    In order for Operation Armas Cruzadas to succeed, ICE has 
incorporated the following key components:

         Training Stakeholders
        ICE will train stakeholders in appropriate laws, resources and 
        methods used to combat trans-border smuggling as well as how to 
        input and retrieve database information on active cases.

         Creating a Border Violence Intelligence Cell
    Border Enforcement Security Task Forces (BEST) generates arrests, 
seizures and significant events raw data. ICE Field Intelligence Groups 
compile the raw data for reports, and the Border Violence Intelligence 
Cell (BVIC) analyzes the information.

         Developing a Vetted Arms Trafficking Group
    Receives and analyzes investigative information for exploitation in 
Mexico and provides investigative information from Mexican weapons 
seizures and arrests for exploitation by BEST.

         Implementing a Weapons Virtual Task Force (WVTF)
    The WVTF facilitates real-time online access to actionable 
information on daily firearms seizures, arrests and other intelligence 
generated by ICE, CBP, the Mexican government and other agencies as 
appropriate.

         Reinvigorating the ICE Border Liaison Program
    The Border Liaison Program establishes an official ICE point of 
contact for CBP, ICE representatives in Mexico, state and local law 
enforcement agencies, as well as Mexican law enforcement agencies along 
the U.S. and Mexican border.

           Border Enforcement Security Team (BEST) FACT SHEET

    In January 2006, the Department of Homeland Security (DHS) 
Secretary adopted the Border Enforcement Security Taskforce (BEST) 
initiative as a DHS task force in order to leverage federal, state, 
local, tribal and foreign law enforcement and intelligence resources in 
an effort to identify, disrupt, and dismantle organizations that seek 
to exploit vulnerabilities in the border and threaten the overall 
safety and security of the American public. The task forces are 
designed to increase information sharing and collaboration among the 
participating agencies focusing toward the identification, 
prioritization, and investigation of emerging or existing threats.
    BESTs incorporate personnel from ICE; Customs and Border Protection 
(CBP); Drug Enforcement Administration (DEA); Bureau of Alcohol, 
Tobacco, Firearms and Explosives (ATF); Federal Bureau of Investigation 
(FBI); U.S. Coast Guard (USCG); and the U.S. Attorney's Office along 
with other key federal, state, local and foreign law enforcement 
agencies.
    A key element of the BEST program is the coordination between U.S. 
and foreign law enforcement agencies. This collaboration better enables 
our governments' ability to attack organizations in a more unified way. 
BESTs on the Southwest border have the participation of the Mexican law 
enforcement agency, Secretaria de Seguridad Publica (SSP). On the 
Northern border, Canadian law enforcement agencies participating in the 
BESTs include the Canada Border Services Agency (CBSA), Royal Canadian 
Mounted Police (RCMP), Ontario Provincial Police, Niagara Regional 
Police Service, and Toronto Police Service. Argentina Customs 
participates in the Miami seaport BEST.
    There are currently 12 BESTs; 8 on the Southwest border, 2 on the 
Northern border, and 2 in seaports.
    The BEST concept was first implemented in Laredo, Texas in January 
2006. BESTs were subsequently established in Tucson, Arizona (March 
2006); El Paso, Texas (October 2006); San Diego, California (November 
2006); and Rio Grande Valley (Harlingen, Brownsville, McAllen), Texas 
(March 2007).
    In fiscal year 2008, BESTs were established in Phoenix, Arizona 
(March 2008); Yuma, Arizona (March 2008); and Imperial Valley, 
California (June 2008).
    The first Northern border BEST initiated operations in Blaine, 
Washington (February 2008) and was followed in Buffalo, New York (March 
2008).
    In fiscal year 2009, BESTs were also established in the seaports of 
Los Angeles/Long Beach, California (October 2008), and Miami, Florida 
(November 2008). The seaport BESTs will address threats that encompass 
the entire maritime operating environment, including ports of entry and 
areas between the ports.

LAREDO BEST
         In January 2006, the BEST concept was first implemented in 
        Laredo.
         The Laredo BEST focuses on the disruption of cross-border 
        criminal activity related to the following: narcotics 
        smuggling; money laundering; human smuggling; weapons 
        smuggling; transnational gangs; and cross-border violence.
         The Laredo BEST members are co-located at the ICE DSAC office 
        in Laredo, Texas.
         The Laredo BEST is comprised of members from the following 
        agencies: ICE OI; ICE DRO; ICE Intel; CBP; ATF; DEA; Texas 
        Department of Public Safety; Texas National Guard; the Laredo 
        Police Department, and the Government of Mexico--SSP.

TUCSON BEST
         Tucson BEST initiated operations in March of 2006.
         Tucson BEST targets major criminal organizations involved in 
        the following: narcotics smuggling; human smuggling; weapons 
        smuggling; money laundering/bulk cash smuggling; and 
        transnational criminal gangs.
         Full-time members of the Arizona BEST are co-located at the 
        ICE DSAC office in Tucson, Arizona.
         The Tucson BEST is comprised of members from the following 
        agencies: ICE OI; ICE Intel; CBP; Arizona Department of Public 
        Safety; Pima County Sheriff's Department; Arizona National 
        Guard--Joint Counter Narco-Terrorism Task Force; Government of 
        Mexico--SSP; with assistance from the DHS Office of the 
        Inspector General; DHS Field Intelligence Group; and the U.S. 
        Attorney's Office.

EL PASO BEST
         In October 2006, the El Paso BEST initiated operations.
         El Paso BEST concentrates on the following major threats: 
        human smuggling; narcotics smuggling; money laundering/bulk 
        cash smuggling; and weapons smuggling.
         Full-time members of the El Paso BEST are co-located in the 
        ICE SAC office in El Paso, Texas and the ICE RAC office Alpine, 
        Texas.
         The El Paso BEST is comprised of members from the following 
        agencies: ICE OI; ICE Intel; ICE DRO; CBP; U.S. State 
        Department--Diplomatic Security Service, El Paso Police 
        Department; and the El Paso Sheriff's Office. DEA is a part 
        time participant.

SAN DIEGO BEST
         In November 2006, the San Diego BEST initiated operations.
         The major threats that the San Diego BEST concentrate on are 
        the following: cross-border tunnels; narcotics smuggling-
        specifically methamphetamine and methamphetamine precursors; 
        human smuggling; and weapons smuggling.
         Full-time members of the San Diego BEST are co-located at the 
        DSAC San Ysidro office in San Diego, California and the DSAC 
        San Diego Operation Alliance office in San Diego, California.
         The San Diego BEST is comprised of members from the following 
        agencies: ICE OI; ICE Intel; CBP; FBI; Naval Criminal 
        Investigative Service; ATF; Chula Vista Police Department; and 
        Government of Mexico - SSP.

RIO GRANDE VALLEY BEST
         In March 2007, the Rio Grande Valley BEST initiated 
        operations.
         The Rio Grande Valley BEST focuses on cross-border criminal 
        activity related to: weapons smuggling; human smuggling; and 
        money laundering
         Full-time members of the Rio Grande Valley BEST are co-
        located at the RAC Harlingen office, in Harlingen, Texas.
         The Rio Grande Valley BEST is comprised of members from the 
        following agencies: ICE OI; ICE Intel; ICE DRO; CBP; with 
        assistance from ATF; Social Security Administration; and the 
        United States Marshals Service.

BLAINE BEST
         The Blaine BEST initiated operations in February of 2008.
         Blaine BEST focuses on the following: Port of Entry (POE) 
        smuggling events (both inbound and outbound); contraband 
        smuggling via commercial truck; human smuggling and 
        trafficking; money laundering and bulk cash smuggling; tunnels; 
        and other vulnerabilities that threaten public safety or 
        national security. Blaine BEST also acts as the investigative 
        arm of the Integrated Border Enforcement Team, when requested.
         Full-time members of the Blaine BEST are co-located at the 
        Assistant Special Agent in Charge (ASAC) Office in Blaine, 
        Washington.
         The Blaine BEST is comprised of members from the following 
        agencies: ICE OI; ICE Intel; CBP; DEA; RCMP; and National 
        Oceanic and Atmospheric Administration (NOAA).

BUFFALO BEST
         In March 2008, the Buffalo BEST initiated operations.
         The Buffalo BEST is focused on the development of 
        investigations of international criminal organizations 
        exploiting the Buffalo Ports of Entry. Initial investigative 
        focus includes: narcotics smuggling; money laundering/bulk cash 
        smuggling; weapons smuggling; and alien smuggling/human 
        trafficking.
         The Buffalo BEST is comprised of members from the following 
        agencies: ICE OI; CBP; ATF; DEA; New York State Police; Niagara 
        Falls Police Department; Buffalo Police Department; CBSA; RCMP; 
        Ontario Provincial Police; Niagara Regional Police Service 
        (NRPS); and Toronto Police Service (TPS).
         The Buffalo BEST also receives additional support from the 
        following: USCG; FBI; United States Postal Investigative 
        Service; and the Internal Revenue Service.
         The Buffalo BEST also receives support from the following: 
        USCG; FBI; United States Postal Investigative Service; and the 
        Internal Revenue Service.

YUMA BEST
         The Yuma BEST officially initiated operations in March of 
        2008.
         Yuma BEST focuses on the following areas: cross-border 
        violence; human smuggling and trafficking; cross-border 
        subterranean tunnels; money laundering and bulk cash smuggling; 
        contraband smuggling; transnational criminal gangs; weapons 
        smuggling; and travel document-related identity theft and 
        benefit fraud.
         Yuma BEST personnel are co-located in the ASAC Yuma office, 
        in Yuma, Arizona.
         The Yuma BEST is comprised of members from the following 
        agencies: ICE OI; CBP; and the Government of Mexico - SSP. Part 
        time support also comes from FBI, DEA and the Arizona 
        Department of Public Safety, State Gang Task Force.

PHOENIX BEST
         The Phoenix BEST initiated operations in March of 2008.
         Phoenix BEST focuses on three main investigative areas: 
        narcotics smuggling; violent alien smuggling organizations; and 
        weapon smuggling.
         Full time participants in the Phoenix BEST are co-located in 
        office space leased by the DEA Special Agent in Charge, Phoenix 
        Office, in Phoenix, Arizona.
         The Phoenix BEST is comprised of representatives from the 
        following agencies: ICE OI; CBP; Mesa Police Department; and 
        the Government of Mexico--SSP; with additional assistance 
        provided by ICE DRO; ICE Intel; Maricopa County Sheriff's 
        Department; and the Phoenix Police Department.

IMPERIAL VALLEY BEST
         The Imperial Valley BEST initiated operations on June 2, 
        2008.
         The Imperial Valley BEST focuses operations on cross-border 
        criminal activity related to: weapons smuggling; contraband 
        smuggling; human smuggling; and violent `Bandit' activity.
         Participants work primarily out of their own offices. ICE is 
        located at the Calexico, CA East Port of Entry. Border Patrol 
        is in El Centro. DEA, BLM and FBI have their separate offices 
        in Imperial.
         The Imperial Valley BEST is comprised of members from the 
        following agencies: ICE OI; CBP; FBI; DEA; Imperial Police 
        Department; and Bureau of Land Management (BLM).

Los Angeles/Long Beach BEST
         The Los Angeles/Long Beach BEST initiated the first seaport 
        operations on October 30, 2008.
         The Los Angeles/Long Beach BEST focuses operations on threats 
        that encompass the entire seaport environment. Specifically, 
        the Los Angeles/Long Beach BEST concentrate on the following 
        investigative areas: the importation of illicit contraband; 
        trade fraud; cargo theft; unlawful exportation of controlled 
        commodities and munitions; stolen property; alien smuggling; 
        and exportation of illicit proceeds.
         Full time participants in the Los Angeles/Long Beach BEST are 
        co-located in office space within the Los Angeles seaport that 
        has been acquired and outfitted to house the BEST.
         The Los Angeles/Long Beach BEST is comprised of members from 
        the following agencies: ICE OI; CBP; U.S. Coast Guard 
        Investigative Service; U.S. Secret Service; Federal Air Marshal 
        Service; ATF; Los Angeles County Sheriff's Department; 
        California Highway Patrol; and Los Angeles Port Police.

Miami BEST
         The Miami BEST initiated seaport BEST operations on November 
        24, 2008.
         Miami BEST will address a number of criminal activities with 
        a nexus to U.S. seaports, and focus on threats that encompass 
        the entire maritime operating environment. Specifically, the 
        Miami BEST will concentrate on the following primary 
        investigative areas: the importation of illicit contraband; 
        trade fraud; cargo theft; unlawful exportation of controlled 
        commodities and munitions; stolen property; alien smuggling; 
        and exportation of illicit proceeds.
         Full time participants in the Miami BEST are co-located at 
        the SAC Miami office in Miami, Florida.
         The Miami BEST is comprised of members from the following 
        agencies: ICE OI; CBP; Broward County Sheriff's Department; 
        Miami-Dade Police Department; and the Argentine Customs 
        Service.

STATISTICS
    Since inception, the BESTs have been responsible for 2,034 criminal 
arrests, 2,796 administrative arrests, 885 indictments, and 734 
convictions, and have seized approximately 7,703 pounds of cocaine, 
159,831 pounds of marijuana, 557 pounds of methamphetamine, 39 pounds 
of crystal methamphetamine, 1,022 pounds of ecstasy, 212 pounds of 
heroin, 97 pounds of hashish, 22 pounds of opium, 515 weapons, 745 
vehicles, 6 properties and $22,678,550 million in U.S. currency and 
monetary instruments.

    Mr. Cuellar. Thank you, Ms. Ayala, for your testimony.
    I now recognize Major Peter Aylward to summarize his 
statement for 5 minutes.

STATEMENT OF MAJOR GENERAL PETER AYLWARD, DIRECTOR OF THE JOINT 
                  STAFF, NATIONAL GUARD BUREAU

    Gen. Aylward. Thank you, Mr. Chairman, Congressman Rogers, 
and committee members for allowing me to come and testify 
before you today. I think it is really appropriate the seating 
you gave me, first of all, here.
    Historical constitutional role and Article 1, section 8, 
clause 15 and 16 is available to the governor and available to 
the president. So putting us in between the local and state 
folks and the federal government is the appropriate role of the 
National Guard has always played.
    Historically, the National Guard has provided support along 
the borders under two programs: Narcotic Drug Program under 
Title 32, Section 112, which is our congressionally mandated 
program, which has authorizations up to 4,000 by law and is 
currently funded at approximately 2,500.
    The other program is under our Innovative Readiness 
Training Program. That program uses existing training funds as 
a training benefit to the units that are getting ready to do 
global deployments.
    And then finally, what I would ask is that the integration 
of the efforts between the two is kind of where we are in the 
whole process of the defining requirements based upon 
capability gaps at the local and state level and at the 
corporate federal government level.
    In fact, later on today, I will be a member of the 
integrated planning committee over at the Eisenhower Executive 
Office building to work with the community as a team to 
discover what those capability gaps are so we can provide the 
appropriate technical advice and assistance and military 
capabilities to complement those.
    So, gentlemen, subject to your questions, I am looking 
forward to the question and answer period later on. Thank you.
    [The statement of General Aylward follows:]

               Prepared Statement of MG Peter M. Aylward

Opening Remarks
    Chairman Cuellar, Ranking Member Rogers, distinguished members of 
the subcommittee; I appreciate the opportunity to appear before you 
today to discuss the activities of the National Guard (NG) in helping 
to secure our Nation's borders. National Guard support to border 
security today is provided through the National Guard Counterdrug 
program and through our use of Innovative Readiness Training.

The National Guard Counterdrug Program
    The National Guard Counterdrug Program is governed by Section 112 
of Title 32 of the United States Code. This authority is the foundation 
for the National Guard Counterdrug Program that has operated in the 54 
States and Territories for nearly twenty years. The law limits the 
program to 4,000 personnel on full-time counter-drug program duties. At 
present it is funded and staffed for just over 2,500 Army and Air 
National Guard personnel. These federally funded programs are developed 
by the respective governors and approved by the Secretary of Defense. 
They are developed within the context of the National Counterdrug 
Strategy of the White House's Office of National Drug Control Policy 
with supporting direction from the Deputy Assistant Secretary of 
Defense for Counternarcotics, Counter-proliferation, and Global 
Threats.
    I am pleased to inform you that these federally funded state 
centric programs are built in response to Federal, State and local law 
enforcement agency counterdrug operational requirements. They fully 
consider State and local threats and vulnerabilities. At all times 
National Guard counterdrug resources are employed in support of law 
enforcement counterdrug operational requirements or community based 
organizations focused on drug demand reduction programs.
    Our efforts in market disruption support law enforcement agency 
operations in marijuana suppression and eradication, enhance 
information sharing networks, provide linguistic support, and conduct 
ground and aerial reconnaissance, among others. Community based 
organizations benefit from our drug demand reduction programs such as 
``Stay on Track''. Our criminal analysts work closely with the 
Directors of the 28 High Intensity Drug Trafficking Areas (HIDTAs) and 
other information fusion centers to develop drug case-related 
information that continues to facilitate law enforcement operations. An 
example of such continuing support can be found in the HIDTA supported 
Denver Colorado Metro Gang Task Force where NG Counterdrug Program 
assets provide full time criminal analysts and regularly conduct aerial 
reconnaissance missions for this Federal, State and local LEA endeavor
    In Fiscal Year 2008, our contributions can be measured through data 
provided by law enforcement agencies and community based organizations. 
Law enforcement agencies attribute the seizure of 21,603 weapons and 
$382.4 million in United States currency to our support efforts. The 
seizure of over 5.3 million cultivated marijuana plants and 903,000 
pounds of processed marijuana are directly attributed to National Guard 
support of marijuana eradication operations. In Fiscal Year 2008, 
nearly 530,000 pounds of cocaine were seized in state operations with 
National Guard support of law enforcement agencies. Community based 
organizations report that we have provided demand reduction programs 
for 6.2 million students, and nearly 60,000 participated in the Stay on 
Track Program in Fiscal Years 2007 and 2008. We project 120,000 
students by the end of Fiscal 2009. Our Counterdrug Program also 
provided nearly 40,000 flying hours supporting various law enforcement 
counterdrug operations over public lands, border missions, and 
extensive marijuana eradication operations.
    The National Guard Counterdrug Program has made similar impacts 
over the last twenty years. The credit for these accomplishments goes 
to the Governors and the Adjutants General for an efficient and focused 
application of authorized and appropriated funds. But we must remain 
vigilant in the application of those resources as threats and 
vulnerabilities change. Our program accomplishments do not go unnoticed 
by drug trafficking organizations. They shift and adjust their tactics 
and trafficking networks to counter our strengths and those of law 
enforcement. The Mexican drug cartels are in conflict over control of 
production and distribution within their own country as well as the 
market place in the United States. Their conflicts as we know have 
developed into intense violence in northern Mexico near the U.S. 
border. Each of the four Southwest Border states are experiencing 
increased drug-related violence and are concerned with the potential 
``spill-over'' of that violence from Mexico into our sovereign States 
and Nation.
    For the last twenty years we have supported law enforcement 
operations along the Southwest Border with National Guard Counterdrug 
personnel and equipment. We have long-standing operational and 
interagency models employed every day in ground and aerial observation, 
information sharing, and linguistics. Today, we have over 300 National 
Guard Counterdrug personnel on duty in Arizona, California, New Mexico 
and Texas working in direct support of Federal, State, and local law 
enforcement agencies conducting counterdrug operations along the 
border. The majority of our support efforts are focused on ground and 
aerial observation, case analysis, engineer work and communications 
support.

Innovative Readiness Training
    Recently, we have successfully employed the use of ``Innovative 
Readiness Training'' (IRT) with specialty units such as engineers and 
aviation, among others. IRT is a Department of Defense (DOD) program 
governed by Section 2012 of USC Title 10 and DOD Directive 1100.20. The 
program's objective is to train soldiers and simultaneously provide a 
benefit to the community. Missions supported by IRT are based on 
requests from thirteen pre-approved organizations, or a Federal, State, 
and local government agency. We are currently supporting the Department 
of Homeland Security's United States Customs and Border Protection with 
engineering work on border roads and vehicle maintenance. The National 
Guard has conducted IRT events along the Southwest Border in support of 
CBP's Border Patrol, which includes activities such as engineering, 
medical/dental, and transportation support. Annual IRT events along the 
Southwest Border have involved an average of 3,250 Guardsmen. Recent 
IRT events from July 2006 to July 2008 provided support through Entry 
Identification Teams, aviation and ground observation, medical, and 
engineering in support of the ``Operation Jump Start'' (OJS) 
initiative. We are capable of assisting through other support to civil 
authorities based on situational needs.

Recent Activity of National Guard Bureau
    In regards to possible National Guard support along the Southwest 
Border, we, through the Department of Defense, are working with the 
Southwest Border states and with the Department of Homeland Security to 
determine if any new requirements exist and whether enhanced National 
Guard support is appropriate.

The Strategic Context
    Mr. Chairman and members of committee, I would close by saying 
that, in addition to accomplishing its federal mission to be a reliable 
reserve component to the Army and the Air Force in combating America's 
enemies overseas, the National Guard has also been the first military 
responder to nearly every public disaster, manmade or otherwise here 
inside the homeland, providing vital capabilities in support of and 
alongside civilian first responders. We have exemplary citizen-soldiers 
and airmen who are in touch with the communities in which they live and 
work. The resultant networks only enhance our ability to provide 
immediate and thoughtful responses to a myriad of challenges. The 
Southwest Border challenge is no different. We have and will continue 
to serve those in need; our communities, our States and our Nation.
    Thank you for the opportunity to be here today, I look forward to 
your questions.

    Mr. Cuellar. Thank you, Major General, for your testimony.
    At this time, I will recognize Sheriff Gonzalez to 
summarize his statement for 5 minutes.
    Sheriff?

 STATEMENT OF SHERIFF SIGIFREDO GONZALEZ, JR., ZAPATA COUNTY, 
     TEXAS; SHERIFF LARRY A. DEVER, COCHISE COUNTY, ARIZONA

    Sheriff Gonzalez. Thank you, Mr. Chairman. Good morning 
committee members, Ranking Member Rogers, members of the 
subcommittee, it is an honor and a privilege to be here with 
you today to discuss and examine preparedness coordination and 
response efforts of first responders along the Southwest border 
and how unique some of those challenges are to us as local law 
enforcement.
    I would like to briefly explain to you how we formed our 
coalition. In May of 2005, 16 sheriffs in Texas, whose counties 
border the Republic of Mexico, formed the Texas Border 
Sheriff's Coalition. In 2007, also because of their 
frustrations, sheriffs from New Mexico, Arizona and California 
joined the Texas Coalition, and we formed the Southwestern 
Borders Sheriff's Coalition.
    These coalitions were formed because of our frustration 
with this. Us 31 sheriffs along the Southwest border dealt with 
inadequacy and a lot of times the inability of our federal 
government to be able to protect our borders. We felt then, and 
still do, that the 2,000 miles of Southwest border of this 
great country of ours needs protection and some type of 
immediate attention.
    We are ready to work as a team, and we have been ready to 
work as a team for a long, long time. One of the many matters 
that concern us along the border is the cross-border violence 
that at times terrorizes the more than 5 million people that 
live along the Southwest border of our country.
    After all this border shares, we are responsible for over 
2,000 miles of border with Mexico and 98,480 square miles, 
which encompasses the 31 counties along the Southwestern 
border. This violence that we see spilling over from Mexico, we 
refer to it as Narco Terrorism.
    People are always living in fear. People that live along 
the border live in fear a lot of times because of this 
spillover violence.
    Now what is Narco Terrorism? As far as we are concerned, it 
is the threats that our officers have to deal with along the 
border on a daily basis.
    And they include but are not limited to kidnappings, 
carjackings, home invasions, extortions, shooting of law 
enforcement officers on the U.S. side from Mexico, armed 
individuals escorting humans and narcotics into this great 
country of ours, members of drug trafficking organizations that 
visit law enforcement officers' homes on the U.S. side and 
threaten them and their families at times.
    We all see many deportable or people that have been 
deported, previously deported from our country coming back into 
the United States, individuals that have been deported because 
of convictions for murders, for child sex assaults, and we are 
seeing them come back into the country. We are seeing an 
increase in auto thefts, not only in the area of the border but 
in Dallas and Houston and San Antonio, Texas.
    Those vehicles come back to the border to Mexico used for 
smuggling of narcotics and humans. Now these criminal 
violations or spillover violence from Mexico and violence along 
the Southwest border, as far as we are concerned, has 
intensified in most areas since at least 2004.
    Now working as a team and working into an interoperable 
communications along the Southwest border, more and more, we 
are seeing individuals, armed individuals, coming into out 
country or to our counties. We feel that it is a matter of time 
before a shootout will occur, and in the event that that were 
to happen, we are very definitely outgunned and outmanned along 
the border.
    The federal government must provide some type of funding 
for local law enforcement in order to assist us in securing the 
borders of this country. In Texas, because of our efforts, our 
governor has opened the Texas Border Security Operations 
Center. The Center along with six others along the Texas-Mexico 
border houses peace officers and enlists intelligence officers, 
and most of them are officed at Border Pro-sector offices.
    We then formed the Joint Operations Intelligence Center, 
the JOICs, where we have local officers, state officers, and 
federal officers working together in obtaining intelligence 
information and then giving it back to the officers in the 
field. This is done on a daily basis.
    Now it is my understanding that this subcommittee wants to 
evaluate the level of coordination of emergency communications 
between federal, state and local officers and how we can 
effectively exchange information in real time in the event of 
an overwhelming emergency.
    Interoperability, I am sad to say, is not always working 
along the Southwest border. We are trying to meet those 
challenges and be able to effectively communicate among first 
responders first in other agencies. Information sharing, 
however, is still a very long ways off. I really want to talk 
about is of course the----
    What we are doing in Texas with some of the programs we 
have, Operation Linebacker, Operation Stonegarden, Operation 
Border Stories Deterrence, if we had as many officers on the 
border as we are doing in Texas now, we are preventing an 
incident from happening in this country. We are preventing 
spillover violence from Mexico.
    And, again, we are very, very concerned of what is 
happening on the Southwest border. We, as sheriffs, are ready 
to proceed. We, as sheriffs, at this time.
    Some of the solutions we talked about, again, is funding to 
be able to properly address the situations for local law 
enforcement. Now, Dr. Barth briefly touched a little while ago 
regarding Sheriff Ted Sexton from Tuscaloosa County, Alabama, 
who has been to the border. This is the first time that we have 
seen the cooperation from the federal government with local law 
enforcement.
    We have attended hearings before here in D.C. and 
elsewhere. With Sheriff Sexton's visit though, we are finally 
able to see something from the federal government where the 
federal government is finally listening to local law 
enforcement.
    We hope that Secretary Napolitano continues with his 
program with the state and local law enforcement, and we hope, 
of course, that Sheriff Sexton continues to visit us in the 
future--the border.
    With this, Mr. Chairman, I want to thank you for what you 
do for our district, the 20th district, and I want to thank the 
committee members for what you do for this great country of 
ours.
    Chairman Cuellar, this concludes my statement, and I would 
be happy to answer any questions the committee members may 
have. Thank you.
    [The statement of Sheriff Gonzalez follows:]

             Prepared Statement of Sigifredo Gonzalez, Jr.

    Chairman Cuellar, Ranking Member Rogers, Members of the 
Subcommittee, it is an honor and a privilege to be invited to appear 
before this subcommittee to discuss and examine preparedness and 
coordination efforts of first responders along the southwest border.
    In May of 2005 sixteen Texas sheriffs whose counties border the 
Republic of Mexico formed the Texas Border Sheriff's Coalition. This 
coalition was formed out of frustration in what we felt was the 
inadequacy of our federal government to protect our border in 
preventing a potential terrorist and their weapons of mass destruction 
from entering our country. We felt then, and still do, that the 1,276-
mile Texas border with the Republic of Mexico is very much unprotected, 
wide-open, and extremely porous. In late March 2007, also because of 
their frustration, sheriffs from New Mexico, Arizona, and California 
joined the Texas coalition in our efforts and we formed the 
Southwestern Border Sheriff's Coalition. The 2,000 miles of 
southwestern border of this great country of ours needs protection and 
immediate attention. Some of the goals of these coalitions are 
interoperability in the event of an emergency, a border area records 
management system, and information sharing. We continue to believe that 
terrorists have expressed an interest and a desire to exploit the 
existing vulnerabilities in our border security to enter or attack the 
United States.
    Although some of the matters of which I offer testimony today may 
seem as if I criticize federal agencies, I want to make sure that we 
understand that neither I nor our coalitions blame the agents of the 
United States Border Patrol, ICE, or any other federal agency, but, 
rather, we sometimes criticize the policies that they have to adhere 
to. In most areas of the southwest border we do not know what we would 
do without CBP/USBP presence.
    One other matter that concerns us along the border is the cross-
border violence that at times terrorizes the more than 5 million people 
that live along the southwest border of our country. After all, as 
border sheriffs we are responsible for 98,480 square miles of land 
along the border.
    The one thing that border sheriffs deal with on an almost daily 
basis is ``narco-terrorism'', or better yet: Domestic Terrorism--
Defined--Code of Federal Regulations-``. . .the unlawful use of force 
and violence against persons or property to intimidate or coerce a 
government, the civilian population, or any segment thereof, in 
furtherance of political or social objectives.'' \1\ For the exception 
of the last seven words of this definition, people living along the 
border, and other areas in the United States, have, at one time or 
another, and are presently experiencing ``domestic terrorism''. Whether 
or not they are involved in drug trafficking, innocent bystanders, 
including family members, stand to suffer for the actions of 
individuals that may have crossed, knowingly or not, a member of a drug 
cartel.
---------------------------------------------------------------------------
    \1\ 28C.F.R. Section 0.85 and http://www.fbi.gov/publications/
terror/terror2000_2001.htm

Emergency Preparedness and Readiness
    Violence along the southwest border has intensified along some 
areas since the latter part of 2004. More and more, we learn of 
abductions, kidnappings, carjackings, home invasions, murders, and 
large-scale incidents. These violations of law are attributed to 
spillover violence from Mexico.
    Through intelligence information and investigations it has been 
learned that several murders along the Texas--Mexico border have been 
orchestrated by members of drug cartels operating on both sides of the 
border. These drug cartel enforcers cross our international border, 
some illegally in areas other than a designated port of entry, commit 
their murders in the United States, then go back to Mexico. They are 
very well armed and are very accurate in what their assignment is.
    The cartels operating in Mexico and the United States have 
demonstrated that the weapons they posses can and will be used in 
protecting their caches. One informant familiar with the operations of 
these cartels mentioned to us that the weapons we use are water guns 
compared to what we will have to come up against if we ever have to. 
These cartels, known to frequently cross into the United States, 
possess and use automatic weapons, grenades, and grenade launchers. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    In confirming the above, the National Drug Intelligence Center has 
stated that ``drug traffickers in the South Texas HIDTA region use 
sophisticated surveillance, counter-surveillance, and communication 
techniques to aid their trafficking operations. Mexican Drug 
Trafficking Organizations maintain cells that monitor law enforcement 
activities and the smuggling operations of rival traffickers.'' \2\
---------------------------------------------------------------------------
    \2\ National Drug Intelligence Center, U. S. Department Of Justice, 
Drug Market Analysis, South Texas High Intensity Drug Trafficking Area, 
2008.
---------------------------------------------------------------------------
    In late January 2006, Immigration and Customs Enforcements' Border 
Enforcement and Security (BEST) Task Force confiscated components of 
Improvised Explosive Devices (IEDs) in Laredo, Texas. It is believed 
that these components were to be sent to Mexico for use by the cartels 
or possibly to be used against us at the appropriate time.\3\
---------------------------------------------------------------------------
    \3\ Testimony of Ms. Marcy M. Forman, Director of Office of 
Investigations, United States Immigration and Customs Enforcement, 
Department of Homeland Security, March 1st , 2006, before the U. S. 
Senate Committee on the Judiciary, Subcommittee on Immigration, Border 
Security and Citizenship and Terrorism, Technology, and Homeland 
Security.
---------------------------------------------------------------------------
    On December 28, 2005, and for the next three days, a sniper in 
Mexico shot at Border Patrol agents that were working along the banks 
of the river in the area of the cities of Rio Bravo/El Cenizo, which 
are located a few miles south of Laredo, Texas. This continued, 
sporadically, for three days. Agents reported seeing several 
individuals wearing military style uniforms on a hill on the Mexican 
side. One of them was using what was believed to be a high-powered 
rifle with scope. 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    On July 12th, 2006, deputy sheriffs of the Hidalgo County, Texas, 
Sheriff's Office and Border Patrol agents were fired upon from Mexico 
after they tried to rescue two individuals. This incident happened 
south of Donna, Texas. Hidalgo County Sheriff Guadalupe ``Lupe'' 
Trevino was quoted as saying that 300 to 400 continuous rounds were 
fired from automatic weapons from the Mexican side of the Rio Grande. 
It was also reported that shots were also fired at the officers from 
the east, the United States side. The FBI has indicated that this was 
the third incident of shootings from Mexico at local or federal 
officers in the first seven months of 2006 between Laredo and 
Brownsville, Texas.
    Cameron, Hidalgo, and Starr Counties in Texas have continuous 
problems with pseudo-cops coming from Mexico to extort and kidnap 
citizens in these counties. This area is the fastest growing area in 
the nation. They have seen their share of terrorist activity as it 
relates to the migration of many members of ruthless gangs that come 
into this country for reasons other than legitimate employment.
    In my county, Zapata County, as well as in other counties along the 
border, we get reports from informants of kidnappings in our counties. 
Individuals are kidnapped and taken to Mexico for ransom. Family 
members seldom file official reports due to fear of further 
retaliation.
    As previously submitted to this legislative body, on February 10th, 
2005, a high-ranking member of the Mara Salvatrucha, or MS-13, was 
apprehended in Brooks County, Texas. He had been previously deported at 
least four times. This MS-13 gang member is believed to have been 
responsible for the killing of 28 persons, including six children, and 
the wounding of 14 others, in a bus explosion in his native country. 
These people, as many others, find it very easy to come into our 
country through a very porous, wide-open, and unprotected border.
    According to the 2008 report of the National Drug Intelligence 
Center, drug traffickers and gang members involved in drug smuggling 
frequently commit assault, automobile theft, burglary, extortion, and 
murder throughout the South Texas border area to facilitate smuggling 
activities and to protect their operations from rival trafficking 
organizations and gangs.
    On July 1st, 2006, twenty-six year old Starr County, Texas, 
Detention Officer Gilberto Hernandez, Jr. went across the river from 
his hometown of Roma to visit his girlfriend. The detention officer 
failed to return and his parents reported him missing the following 
day. On July 3rd his badly beaten body was found in Mexico several 
miles from the border. His hands had been tied behind his back and his 
eyes had been bandaged. It is believed that he was tortured before 
being shot through the head, from behind, the bullet exiting through 
his forehead. During his funeral services a kidnapping was taking place 
across the street from the funeral home. One of the kidnappers was a 
Mexican National who had an outstanding warrant for a murder that he 
had committed a year before in the same county.
    Other threats that our offices have to deal with along the border 
on a daily basis include, but are not limited to, the following:
        <bullet> Kidnappings
        <bullet> Carjackings
        <bullet> Home Invasions
        <bullet> Extortions
        <bullet> Shooting from Mexico at law enforcement officers.
        <bullet> Armed individuals escorting drug and human loads into 
        the United States.
        <bullet> Members of Mexican Drug Trafficking Organizations 
        (DTO's) visiting the homes of U. S. officers to threaten them 
        and their families.
        <bullet> Drug/Prison/Gang members working for Mexican DTO's.
        <bullet> Documented/Deported criminals re-entering the United 
        States, including murderers and child sex molesters.
        <bullet> Auto theft (vehicles are used for smuggling of humans 
        and drugs).
    These criminal violations are spill-over violence from Mexico.

Cross-Border Communications and Information-Sharing Capabilities / 
Emergency Response Resources and Personnel
    We have always maintained that if you don't live on the border you 
don't know how vulnerable this country is for a terrorist attack. 
Persons living 50 miles or more away from the border have the 
impression that this border is very well protected. This is a farce. 
The border is not protected. It is known that many of the operatives of 
cartels in Mexico live in the United States. Information received by 
our respective agencies indicates these criminals are living in our 
communities. They come to our cities and towns when things get too hot 
in Mexico. They come here to escape the possibility of apprehension in 
Mexico. Information received is that they are living along the border 
on the United States side.
    Employees of our offices have also seen incursions into this 
country of persons seeming to be members of the military of Mexico. On 
March 3rd, 2005, several officers assigned to do surveillance by the 
Rio Grande River by the Zapata/Webb County line in Texas observed 
approximately 20-25 persons walking on a gravel road, coming from the 
area of the riverbanks, marching in a cadence. These individuals were 
dressed in battle dress uniforms (BDUs), carrying what officers believe 
to be automatic weapons, very clean cut, and in very good physical 
condition. They were carrying backpacks and large duffle bags and 
walking two abreast.
    More and more we are seeing armed individuals entering our country 
through our counties. We feel that it is a matter of time before a 
shootout will occur. In the unfortunate event of a shootout, federal, 
state, and local officers along the southwest border are not adequately 
armed. Compared to the ruthless and brazen and open behavior of the 
cartels we face, we are most certainly outmanned. In the event of a 
shootout, many casualties will likely occur. Federal, state, and local 
officers all along the southwest border of the United States are 
outgunned and outmanned.

    The federal government must provide funding to local law 
enforcement agencies in order to assist in securing the borders of this 
country.
    In Texas, because of the efforts of the Texas Border Sheriff's 
Coalition, Texas Governor Rick Perry has opened up the Border Security 
Operation Center. This center, along with six other ones along the 
Texas/Mexico border, houses analysts and intelligence officers. Most 
are officed at Border Patrol sector headquarters. Every day all law 
enforcement agencies that participate in Operation Border Star, the 
border security initiative presently being used, send in their 
intelligence information. At least once a day these centers, called 
Joint Operations Intelligence Centers (JOIC's) disseminate the 
collected information back to the field officers.

SUMMARY
    The 31 member sheriffs (20 from Texas, 5 from New Mexico, 4 from 
Arizona, and 2 from California) of the Southwestern Border Sheriff's 
Coalition are very concerned with the very unique problems along our 
border. Border Patrol is doing the best they can with the resources 
that are available to them. Immediate help is needed for them and for 
southwestern border sheriffs for the protection of our country.
    We are seeing more and more persons coming across our southwestern 
border than ever before. From what we are seeing, we feel that most of 
these persons are not coming into the country to look for legitimate 
employment. We feel that terrorists are already here and continue to 
enter our country on a daily basis. Our border is wide open; it is very 
porous and definitely unprotected and vulnerable.
    Putting pressure on the Mexican government to enforce drug laws and 
provide the assistance mandated by the Merida Initiative is like 
filling up a balloon with air and then starting to squeeze it a little 
bit at a time. After squeezing it much, the balloon will burst. It is 
better that this balloon burst towards the southern border of Mexico 
and not toward the United States.
    It has been almost eight years since the worst terrorist attack in 
this country and we are still as vulnerable, if not worst, that before 
September 11, 2001. We have seen no funding for any projects along the 
southwest border. On the contrary, as time goes by we see less funding 
opportunities.
    In five years we have seen broken promises of protecting our great 
nation. September 11, 2001, was a dark day in American history and the 
protection of a great nation. What has changed since that day along the 
border and in my backyard? Nothing. As I speak before you today, 
funding aimed at border security along the southwest border didn't come 
from Washington, DC, it came from Austin, Texas.
    The governor of Texas is in the same position we in law enforcement 
have been in for years. We are fed up and tired of failed policies and 
promises. Texas is the can do state and Governor Perry has decided to 
fund a border security initiative that has literally shut down criminal 
enterprises in several Texas counties.
    We did this with state funds and working with federal partners on 
an initiative that puts law enforcement in the driver's seat instead of 
the carters, smugglers, and border crossing criminal entrepreneurs. 
This should have been done on September 12, 2001, by our federal 
government. Washington, DC didn't just fail me and my law enforcement 
comrades. . . .it has failed Americans. Just shy of eight years from 
that day and the border remains open to smuggling operatives, criminal 
organizations and people aimed at destroying this nation.
    On the southwest border you left us no choice; we have had to pick 
up the fight to save our counties. We didn't ask for this battle on the 
border. . . . . .but we refuse to lose to criminals!

POSSIBLE SOLUTION
    In Texas, we have implemented Operation Linebacker, a second line 
of defense in the protection of our country. The United States Border 
Patrol being the first line of defense. The problems along the border 
are federal problems. Our governor, the Honorable Rick Perry, could not 
wait for a peace officer to get killed along the border. He, just as 
we, is very much concerned. The Texas Legislature appropriated $110 
million as seed money for us to start Operation Border Star. Operation 
Border Star is an operation that partially funds Operation Linebacker 
and makes available all state resources for the protection of the 
border. Operation Linebacker and Operation Border Star have proven to 
be successful. Deterrence has been very successful. These are proven 
operations that should be funded by the federal government.

CONCLUSION
    Committee Members, there cannot be homeland security without border 
security. Border Security, the prevention of spillover violence from 
Mexico, and information sharing is not a blue issue or a red issue. It 
is a red, white, and blue issue. Our southwest border needs immediate 
attention. Local officers, sheriffs, not federal officers, answer 
emergency calls for assistance made by our constituents. We are the 
first responders! Must we wait for another terrorist act or until an 
officer gets killed before we act?
    I want to express my most sincere appreciation for allowing me the 
opportunity to appear before you and thank you for the work you do for 
our country, the United States of America.
    Chairman Cuellar, this concludes my statement. I will be pleased to 
answer any questions that you or Members of the Sub-Committee may have.

    Mr. Cuellar. On the cameras, just make sure there is no 
flash photography, just on that.
    Sheriff Gonzalez, I always appreciate, actually he is from 
my district. Janice also is in Laredo, also. I want to thank 
them because they do have a lot of experience on the border.
    As the next sheriff, Sheriff Dever, who will now summarize 
his statement for 5 minutes.

  STATEMENT OF SHERIFF LARRY A. DEVER, COCHISE COUNTY, ARIZONA

    Sheriff Dever. Chairman Cuellar, Ranking Member Rogers, 
members of the committee, thank you for inviting me here today.
    I sit here not only representing my constituents in Cochise 
County and fellow law enforcement officers in Arizona but also 
the National Sheriff's Association, where I sit on the board of 
directors and chair the Immigration Subcommittee, and it is 
with their support that I am here today.
    Just to give you a brief history, kind of put in 
perspective where we have been and where we are: I have in my 
hand a magazine published by Arizona Sheriffs and County 
Attorney's Association that quotes then Border Patrol Sector 
Chief John Gall as saying this, ``Within the last year, we have 
been mandated by Congress to gain control of the border, and we 
are going to do that on our southern border, whether it is 
narcotics, illegal aliens, terrorists, criminals or whatever.''
    Now, what I find remarkable about this publication is that 
it was published in 1987, and the word ``terrorist'' is 
mentioned here. So this is nothing new. Criminal aliens on the 
border is nothing new, and this was also 1987, 1 year post 
Reagan Amnesty. And obviously, that program did not work at 
that time and is likely not to work again in terms of securing 
our border.
    Also, in 1997, I was invited before a body of Congress to 
testify about border violence on the Southwest border. That was 
12 years ago, and here we sit today holding a hearing regarding 
the same thing. I only say that to help us to not continue the 
same path that has led us here today and that 12 years hence, 
we are holding these hearings over the same matter.
    Violence comes in many forms on the border, and it starts, 
frankly, south of the border with the smuggling organizations 
competing for the corridors that they work in and competing for 
illegal aliens to smuggle, and it continues as they cross the 
border.
    It is estimated that over 80 percent of the women who cross 
the border illegally have been subjected to sexual assault 
somewhere on their journey prior to ever crossing the border. 
We deal with homicides, sexual assault, physical assault, 
robbery, and all of those crimes have to be investigated by 
state and local law enforcement on this side of the border.
    When people are arrested and charged with those crimes, 
they are housed in our jails at tremendous expense. Their stay 
is long because they can't post bond. Most of them are 
indigent, so they are assigned an attorney to represent them by 
the county, by the state, at the state's expense, and many of 
them have serious medical problems that also require, since 
they are now wards of the state, require the state and counties 
to foot that bill. That is some of the bad news.
    Also, another portion of the bad news is that people who 
die crossing the border as a consequence of natural causes, 
those cases have to be investigated fully as homicides until 
cause of death is determined. And so those are very expensive 
as well.
    Moving quickly along, the physical impact over the years 
has suggested that as much as 37 percent of local budgets are 
being expended on matters illegal-alien related. If you had to 
spend 37 percent of your business profit, all of a sudden, 
overnight were diverted to something you hadn't planned or 
prepared for, you would probably be out of business.
    SCAAP was an important program, State Criminal Alien 
Assistance Program, that in 1995 resulted in a reimbursement to 
localities for incarcerating illegal aliens of approximately 33 
percent. Today, that fund accounts for 9 cents on the dollar in 
reimbursement to localities. It needs to be restored.
    How better to coordinate my friend and colleague, Sheriff 
Gonzalez, has suggested some things. We have seen an improved 
outreach by DHS in the last few months. It is greatly 
appreciated. Important thing to remember that I can't emphasize 
enough, is that every federal initiative, every federal 
strategy and tactical planning opportunity needs state and 
local input because they have local consequences. And if those 
aren't considered up front, we will continue to suffer 
tremendously under this great burden.
    Thanks for having us here today. I look forward to 
answering your questions.
    [The statement of Sheriff Dever follows:]

                  Prepared Statement of Larry A. Dever

INTRODUCTION:
    Chairman Cuellar, Ranking Member Rogers, members of the 
subcommittee, thank you for inviting me to this hearing. The matters 
being heard here today regarding security of our Country's southern 
border are of great concern for me and should be at the top of the list 
of concerns for the welfare and protection of our great nation. I was 
born and raised in the border environment. That along with over 33 
years of law enforcement work in this arena offers, I believe, a 
perspective unknown or experienced by most officials who sit in 
decision making positions that so profoundly affect our nation's 
security.

BACKGROUND:
    The region of the U.S./Mexico border identified in the Federal 
border enforcement scheme of things is the Tucson Sector of the Border 
Patrol. It encompasses three counties and covers over 200 miles of the 
border. This portion of the 2200 mile border accounts for almost half 
of the people captured illegally crossing our border and almost half of 
the marijuana seized being smuggled into this country.
    The Arizona Sheriffs and County Attorney's Association once 
published a quarterly magazine. The United States Border Patrol was 
featured in one of its editions. Then Border Patrol Tucson Sector Chief 
Jondal is quoted as saying this: ``Congress has mandated that we get 
control of our border. And that is exactly what we are going to do. 
Whether it is illegal aliens, drugs, terrorists, or whatever, we are 
going to get control of our border.'' That publication was issued in 
the fall of 1987. There are four remarkable points to note in this 
statement: That ``Congress mandated'' control; that this was post 
Reagan amnesty (and I emphasize the word ``amnesty'' which is widely 
discussed today): that the idea that a terrorist threat existed even 
then; and that we sit here 20 years later still discussing the same 
stuff.
    Then, June 1997 I was invited to testify before the Senate Foreign 
Relations Committee. The focus of the hearing--Border Violence. And 
now, 12 years later, we see this sudden flurry of activity and concern 
over the need to reign in this wave of terror on the border.

WHAT WE KNOW:
    Violence associated with drug and people smuggling is increasing. 
It comes in many ways. People attempting to enter this country 
illegally are regularly subjected to robbery, assault, rape, kidnapping 
and all other kinds of atrocities. Much of this occurs before they ever 
cross the border. Competing organizations rob, steal and murder, also 
on both sides of the border. In Arizona, the transportation hub cities, 
Tucson and Phoenix experience these events daily. Kidnappings and 
murders south of the border are occurring at an alarming rate and some 
of it is migrating north as vulnerable groups move their families out 
of Mexico.
    Smugglers working on the U.S. side of the border are more inclined 
to fight than to flee, have better telecommunications than many border 
law enforcement agencies, and have extremely sophisticated networks 
that challenge the best we have to offer in response.

RESPONSE AND INTEROPERABILITY:
    In today's border environment there is a multitude of federal, 
state and local law enforcement personnel, firefighters and medical 
providers who play a role in the response scheme of things. And then 
there are others--Red Cross, F.M.A., Search and Rescue, Medics, 
Hospitals, etc., etc., etc. While we hold meetings, hold simulation 
exercises and do lots of other things to bring all these assets 
together, the greatest obstacle to success is the inability to 
communicate on a common network. While there are jurisdictional and 
financial obstacles to achieving complete operability, the biggest 
challenge is the building of infrastructure and having manpower to 
staff communication centers. This will require the construction of 
physical communication facilities and funding to hire support 
personnel.
    The good news is that cooperation, communication and planning 
activities are more common today than ever before. A recognition and 
emphasis of these activities should remain a priority.
    The bad news is that last year Congress swept $480M from BYRNE/JAG 
funding for joint narcotics task force funding, severely crippling 
coordinated drug enforcement efforts across the nation, most 
particularly along the border. These funds need to be restored.
    A meaningful federally funded effort to enhance border enforcement 
is what is known as ``Operation Stonegarden.'' This pays overtime and 
operational costs for local law enforcement officers to support and 
enhance Homeland Security efforts to interdict illegal border 
crossings. An expansion of this project, to include the permanent 
hiring of additional officers would help to significantly mitigate the 
impact of crime committed by illegal aliens.

FISCAL IMPACTS:
    Over the past ten years, as much as 37% of local jurisdiction 
criminal justice system resources have been diverted to matters illegal 
alien related. We have always had to deal with the dynamics of drug 
smuggling in this area, but alien smuggling has presented a whole new 
dimension of challenges. Property damage, theft, burglary and the trail 
of garbage and human waste left behind by countless numbers of illegal 
border crossers are the order of the day. People who commit these 
crimes and who are housed in county jails and state prisons add to the 
cost. Since they cannot pay bond, declare indigency and often have 
serious medical problems, all of this expense is shifted to the local 
jurisdiction.
    In 1995, Congress authorized reimbursement to state and local 
jurisdictions (S.C.A.A.P. State Criminal Alien Assistance Program) to 
assist with these costs. Then, we recovered approximately 33% of actual 
expenses, minus medical costs. Today, that fund only reimburses about 9 
cents on every dollar.

BOTTOM LINE:
    There are some good things that are working. Operation Stonegarden, 
which provides funding to local jurisdictions to support Federal border 
enforcement efforts, has proved to be effective. Sheriffs on the border 
have no interest in becoming border enforcement agents. We do, however, 
have a significant role to play in preventing and investigating crime 
related to drug and people smuggling in our respective counties. Until 
our Federal Government achieves its mandate to secure our borders, we 
will be plagued with the consequences. We do not have the resources to 
successfully meet our obligations, and therefore require some relief. 
Expansion of existing federal programs that adequately reimburse and 
enable local criminal justice agencies to employ necessary resources 
are imperative.

    Mr. Cuellar. Sheriff Dever, I thank you very much for your 
testimony, and I want to thank all the witnesses for their 
testimony.
    I would like to recognize, of course, the chairman of the 
full committee, Chairman Thompson, who is here present and 
thank him for the leadership that he has provided on this 
issue.
    I would like to remind each member that he or she will have 
5 minutes to question the panel. I will now recognize myself 
for 5 minutes on the questions.
    As a proponent of team work that produces measurable 
results, I introduced the Southwest Border Security Task Force 
Act of 2009, that is H.R. 1439. That will coordinate the 
efforts at the federal and the state and the local folks are 
doing and to work together, not only on this side, but also 
with our counterparts across the river.
    I know that those specific instances where we have BEST and 
other programs where they are working together, but I am 
talking about a coordinated effort across the Southwest border.
    Taking that in consideration, I was also disturbed, you 
know, to read that the March 25th edition of The Wall Street 
Journal said that those federal agencies are refusing to work 
together on task forces that the administration has established 
to fight drug cartels.
    The article cites an example, for example, one of the 
federal agencies that refuses to allow its agents to 
participate in the special task force groups established by DHS 
in Arizona, which is a major corridor for gun trafficking.
    They are participating in Texas but they are not 
participating in Arizona, and this is one of the reasons why I 
am a big proponent of coordinated--it is a very simple concept, 
but it is hard to implement, but I think we need to have that 
coordination.
    I guess, Dr. Barth, my question to you is, does DHS have 
the authority to compel participation of DHS components and 
other federal agencies to work collectively to deter the 
encroaching drug cartel related violence?
    Dr. Barth. Thank you, Mr. Chairman. I think that I am not 
aware of the exact incident that you are referring to that The 
Wall Street Journal reported on.
    Mr. Cuellar. ATF.
    Dr. Barth. ATF? Okay. I am not aware of that precise case, 
for example. DHS does not have, indeed, the authority to compel 
other agencies to participate in various operations; however, 
DHS does have a leadership role in the Southwest border that I 
think you will see being very effectively managed 
collaboratively among the agencies.
    For example, Secretary Napolitano, has met both with 
Secretary Clinton and the Attorney General Holder to ensure at 
the very highest levels of the administration that there is a 
commitment to work collaboratively on all of the issues across 
the board that affect the Southwest border.
    That goes to north of the border, collaboration on guns 
moving south and money moving south to interdict drugs that are 
moving north and to work with the Mexican government on the 
violence that is south of the border, particularly through the 
Merida Initiative and other collaborative work that is done by 
ICE and other components of all the agencies of government.
    As we speak here today, there is intensive work going on 
that involves, indeed, all of the components of DHS as well as 
representatives of other agencies to ensure that the level of 
collaboration going forward is unlike that we have ever seen 
before.
    And from what I can tell from where I sit working both with 
the White House and other agencies, through the White House 
coordination process, I would add that the White House and the 
Obama administration is fully committed to making sure that the 
collaboration exists going forward.
    Mr. Cuellar. Right. What about working with the local 
offices? I know you had the gentleman Sexton go out to specific 
areas, but that is a time-specific, time-certain time that you 
have an individual, but is there more of a coordinated effort 
that you are reaching out to the local folks?
    Dr. Barth. Yes, I believe, Mr. Chairman, that Secretary 
Napolitano as a former border governor, will focus on those 
relationships like no one ever has before. She realizes the 
critical nature of that kind of collaboration. I think that you 
will see frequent visits by her and her senior staff to the 
northern border and to Mexico until we get ahead of the curve 
here.
    Mr. Cuellar. Secretary Napolitano will be in Laredo this 
Friday. I don't know exactly what her schedule is. I have a 
general idea what it is, but can you make sure that she meets 
with the local state and local law enforcement?
    Because my understanding is that, you know, without going 
to her agenda, but I just want to make sure that two things are 
said: one, that we include the state and local folks, and we 
will be happy to coordinate with you, number one.
    And number two, that we bring some of the business 
community leaders, because one of the things--for example, 
Laredo's the largest inland port in the U.S., and we want to 
make sure that we have strong border security, and I think 
Janice and--you know that in that area.
    We want to have strong border security, but at the same 
time, you know, when we have 13,500 trucks a day coming across 
the border, doesn't include rail, doesn't include air also. We 
don't want to impede the trade.
    We don't want to impede the truism, the retail, which is so 
important to our border economy, and I would ask you to just 
make sure you send that message that it is not just coming in 
and meeting with federal ICE officials. You know, with all do 
respect, but also to include our local and state officials 
also.
    Dr. Barth. I will transmit that message. I know she is 
trying to meet with both private sector representatives as well 
as state and local officials on all parts of her trips as she 
travels around the country, and that message will be 
transmitted for sure.
    Mr. Cuellar. Thank you, Dr. Barth.
    Dr. Barth. You are welcome.
    Mr. Cuellar. Major General Aylward, last month, Governor 
Perry for the state of Texas requested the president provide 
1,000 more guardsmen to support border security missions along 
the Texas-Mexico border.
    From your perspective, does Texas need more Title 32 
resources, or do we have enough adequate resources to meet its 
mission?
    Gen. Aylward. Thank you, Mr. Chairman. In my opening 
remarks, I mentioned we are really at the preliminary stages, 
the formative stages of developing requirements based upon 
capability gaps that exist.
    The appropriate role, and from a Guard Bureau view, is to 
provide the technical advice and assistance on the capabilities 
within the military portfolio that augment either state and 
local requirements or requirements that we would get from the 
Department of Homeland Security. And so, we are still in the 
formative stages of that. We really don't have a complete list 
of what the requirements would be.
    But any requirement that we did get, we wouldneed that 
increased funding in order to be able to accomplish those 
missions and the range of activity that they are looking for us 
to perform, without which that increased funding, then there 
would be an impact on our readiness.
    Mr. Cuellar. So you are answer is?
    Gen. Aylward. I mean the view of the state and local folks 
in terms of what the requirements are is, as you kind of 
highlighted, is a combination of the local officials and the 
state officials.
    Do they have enough capacity and capability within those 
different organizations and agencies to cover down on what the 
governor asked for, I think, is still something that they are 
working through. And so, until they complete that analysis, the 
identification of any gaps that would exist that the Guard may 
augment is still a work underway.
    Until that work is done, I don't have a definitive answer 
for you.
    Mr. Cuellar. Okay. Thank you, sir.
    One last question, and then I will pass this on to the 
ranking member.
    Ms. Ayala? That same article, the March 25th edition of The 
Wall Street Journal, the former ICE director, Julie Myers said, 
that the MOUs regarding who works on drug-related cases are 
outdated and, ``the agents have their hands tied behind their 
backs.''
    Any comments on any MOUs that you all have among agencies, 
federal agencies, and any opinions as to whether they are 
outdated or whether they should be adjusted so you can go ahead 
and meet the emerging threats that we have?
    Ms. Ayala. Thank you. Yes, we are working on an MOU that 
predates the establishment of ICE or DHS. It is a MOU from 1994 
between Customs and DEA, and it does put a cap on the number of 
cross-designated Customs agents, or ICE in this case. At that 
time, we were working with about 3,000 agents, and now we are 
up to T.O. of over 6,000 agents.
    We are a border agency that deals with all cross-border 
smuggling, and we would appreciate to have Title 21 concurrent 
authorities that would help us to do our job better and avoid 
delays.
    Mr. Cuellar. So are you all working on updating that MOU?
    Ms. Ayala. We have been working, yes, sir, with DEA on 
updating that MOU.
    Mr. Cuellar. Do you know when roughly you will have that 
done?
    Ms. Ayala. I am not sure, but I can get back to you on 
that, or we can set up a briefing to give you more particulars 
of all the details at this point.
    Mr. Cuellar. Okay. If you would just keep the committee 
updated on that, and if we can assist you in any way, and try 
to get you and DEA to get together and work this out, let us 
know.
    Ms. Ayala. Thank you.
    Mr. Cuellar. All right. At this time, I would like to 
recognize the ranking member of the subcommittee, Mr. Rogers, 
the gentleman from Alabama for questions.
    Mr. Rogers. Thank you, Mr. Chairman, and I had planned to 
go in a different direction with questions, but Sheriff Dever 
really, I think, honed in on what this hearing's all about, and 
that is referring to the 1987 article that talked about these 
same things. And here we are dealing with them in a more of a 
reactive fashion than a proactive fashion.
    I would like to know, particularly from you and then 
Sheriff Gonzalez, what are we at the federal level not doing 
that we should be doing to make sure that you have what you 
need at the first responder level to deal with these threats 
that you described so well?
    Sheriff Dever first.
    Sheriff Dever. Mr. Chairman, Ranking Member Rogers, thank 
you. A couple of things come to mind. The federal government 
has increased resources on the border significantly over the 
past 10 years, but sadly still coming up very, very short. I 
mentioned the SCAP funding program, which is really 
significant.
    I mean, most counties along the border are small and poor 
and yet have a tremendous burden in terms of bearing the 
financial hardship of the cost associated with crime committed 
by people who cross the border illegally. And those----
    Mr. Rogers. How much do you receive in Cochise County?
    Sheriff Dever. Right now, we are getting about 9 percent on 
every dollar that we spend.
    Mr. Rogers. What do you need?
    Sheriff Dever. One-hundred percent.
    Mr. Rogers. Which is how much?
    Sheriff Dever. Right now, we are incurring somewhere 
between $400,000 and half million dollars a year in housing, 
and keep in mind, we do not house people charged for federal 
immigration violation or federal drug crimes. These are crimes 
committed against the state where charges have been filed in 
the county.
    Mr. Rogers. So you need $1 million a year for SCAP funding?
    Sheriff Dever. Yes, sir.
    Mr. Rogers. What else?
    Sheriff Dever. Well, we were just talking about one county.
    Mr. Rogers. I know. I am asking you what else do you need?
    Sheriff Dever. Secondly, Operation Stonegarden has had some 
success. Enhancement of that would be helpful. One of the 
things that is lost in most funding mechanisms in programs, 
Congressman, is costs for infrastructure to support.
    We put a lot of boots--we talk about boots on the ground. 
We talk about officers and patrol cars and costs associated 
with all of that, but as that component grows and increases, so 
does the need for supporting infrastructure.
    Mr. Rogers. Such as?
    Sheriff Dever. Communications, communications 
infrastructure, giving us the ability to talk to each other 
across----
    Mr. Rogers. What else?
    Sheriff Dever. --jurisdictional boundaries and lines. There 
has been some improvement there and there is still a long way 
to go. Personnel to man communications centers, money for brick 
and mortar to build enhanced communications centers.
    We are operating out of little cubby holes and corners, and 
a place where we can co-locate and have a commonality for 
communications, as well as the support staff in terms of 
recordkeeping, you know, report and data retrieval, 
intelligence gathering and dissemination.
    All of those components are necessary.
    Mr. Rogers. Okay. What about you, Sheriff Gonzalez?
    Sheriff Gonzalez. Basically, about the same thing, Mr. 
Rogers--we are looking at, for example, Ms. Ayala talks about 
the BEST task forces, regular task forces. When you have small 
counties, you cannot always contribute to those task forces 
with personnel, because you don't have any personnel to 
contribute with.
    There is some counties in Texas that have a sheriff and two 
deputy sheriffs cover 6,000 square miles. It is very, very 
difficult to be able to have somebody or to participate. 
Operation Stonegarden is good--also, how long can you work this 
officers on overtime?
    The COPS Programs, for example, that have been recently 
reinitiated again, very good programs. Things we would like to 
see is that perhaps at year 4 that the local agencies don't 
have to continue to fund those positions as a requirement to 
keep those officers.
    What do we need on the border officer to assist in what is 
happening on the borders is personnel for local agencies. This 
Congress of the 107th, 108th Congress, I don't recall exactly 
which one it is, but there was legislation filed that was also 
sponsored or supported Congressman Cuellar, Congressman McCaul 
and some other congressmen along the border.
    Legislation was filed together with Congressman Culverson. 
That was directed at specifically local law enforcement, and 
that is where we need the funding. You can have all the ICE 
agents or border patrol agents in the nation go to the border. 
How long will they be there?
    Mr. Rogers. Yes.
    Sheriff Gonzalez. For one, and how many of those 95 
percent, probably, are going to be lost. They don't know where 
they are going to go. They don't know the local people. They 
don't know who the local dealers are. They don't know those 
things.
    Mr. Rogers. Yes.
    Sheriff Gonzalez. So, mostly, you go to the borders for 
federal agents mostly what I call a hardship station. You get 
there, you want to get out of there as quick as you can. We are 
there. We live there. We know the people. We need----
    Mr. Rogers. Thank you.
    Sheriff Gonzalez. --the funding for local agencies.
    Mr. Rogers. Thank you.
    Ms. Ayala? Has there been any communication between your 
office or your department and these local law enforcement 
agencies about specifically what they need from you or from the 
Department, and that may be for Dr. Barth, I don't know.
    And a way to kind of put this in a form of a request to 
Congress to make sure that they are receiving what they need to 
work in collaboration with you in an effective manner.
    Ms. Ayala. Well, we work with them every day. Most of them 
are on our task forces to look at what type of equipment needs 
and what type of facility needs they have. We participate with 
them on a daily basis as far as trying to get them cross 
designated and providing some other means for them to have 
asset-sharing opportunities.
    Because they are on our task forces, any time we seize an 
asset, they are entitled to put in for asset sharing----
    Mr. Rogers. But my question is, have you put together an 
inventory of what is needed along the Southwest border, 
specifically, with regard to local first responders, local 
assets so that you can come to us as the authorizing entity and 
say what we need to do our job in collaboration with local law 
enforcement is A, B, C, D, E. Do you have that assembled?
    And that may be for Dr. Barth. It may not be a fair 
question for you.
    Dr. Barth. Thank you, yes. Let me at least give us two data 
points for point of departure here. For the Operation 
Stonegarden funding, in 2008, we have about $58 million to 
award. We have 143 applications totaling $290 million. So that, 
for example, gives you a highlight of the gap between what 
might be required to help all of the 24 counties in the four 
states along the Southwest border.
    We will award that $58 million in the near future. We have 
$60 million in the 2010 budget plan for Operation Stonegarden. 
So clearly, more resources could be used along the Southwest 
border. Our effort is to try to make sure that the resources we 
do have are prioritized according to risk and, therefore, 
allocated accordingly.
    Mr. Rogers. I understand, and in fairness, I am not beating 
up on you, because it is not your fault--$60 million along the 
entire four states of the Southwest border is a miniscule 
amount of money to deal with the problem we have got, 
particularly, given the amount of money we are talking about 
giving to the Mexican government to deal with this.
    We need you all to come to us with some meaningful numbers 
that you need from us to deal with this problem. You know, the 
numbers that Secretary Napolitano's talking about redirecting 
within her current budget, is not really a meaningful number, 
in my view.
    So that is the direction I would ask for from you.
    I am sorry I went over my time, Mr. Chairman. I yield back.
    Mr. Cuellar. At this time, I will recognize other members 
for questions that they may wish to ask the witnesses, and 
accordance with our committee rules and practice, I will 
recognize members who were present at the start of the hearing 
based on their seniority of the subcommittee, alternating 
between the majority and the minority. Those members coming in 
later will be recognized in the order of their arrival.
    At this time, I will recognize the chairman of the 
committee, Mr. Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman, and I 
appreciate you holding this hearing.
    I would like to ask both Sheriff Gonzalez and Sheriff Dever 
prior to the announcement of this border initiative, did you 
receive any communication from the Department. Yes or no? I 
guess that is----
    Sheriff Gonzalez. Very short answer, Mr. Chairman, you 
talking about the Department of Homeland Security?
    Mr. Thompson. Yes.
    Sheriff Gonzalez. No, sir.
    Sheriff Dever. It would be the same answer here, sir.
    Mr. Thompson. Are there some things in this initiative that 
you think we could do better in line with what the ranking 
member asked earlier, or are you satisfied in the present form?
    Sheriff Gonzalez. Again, Mr. Chairman, there is really not 
enough funding there. And let me just clear something up, and I 
know I have said this many, many times in the several times 
that I have testified before Congress. We don't want to be 
border patrol agents. We are just concerned with what is coming 
into the country on the criminal type of basis.
    We need, again, funding for local law enforcement to be 
able to do what we are supposed t be doing along the border, 
sir.
    Mr. Thompson. So in other words, you are looking for help 
to help catch the bad guys. Am I correct?
    Sheriff Gonzalez. We are looking for help in catching the 
bad guys who are coming in, sir, and also protecting the 
citizens and residents who are already living in our counties 
so that they not get kidnapped and not get extorted, not have 
their homes invaded, that they not get tortured and things like 
this.
    Mr. Thompson. Absolutely.
    Sheriff Dever?
    Sheriff Dever. Give you a ballpark number and actually it 
is kind of a hard number. We beat this around National 
Sheriff's Association for sometime about a year ago trying to 
come up, for the Southwest border, a hard number that we 
thought would be adequate--*$500 million a year for 5 years was 
the figure that we looked at as being actually something 
meaningful that would provide the resources Sheriff Gonzalez 
and I mentioned here today.
    Mr. Thompson. Thank you.
    Major General Aylward? You referenced in Chairman Cuellar's 
question that you are not quite ready to address Governor 
Perry's request for 1,000 people or you are still analyzing it, 
and could you just kind of expand on your previous answer?
    Gen. Aylward. Yes, sir. In fact, this afternoon I will be 
attending a meeting over at the Eisenhower Executive Office 
Building. We just got to take the requirements across the four-
state region marry it up against what the rest of the 22 
agencies that make up the Department of Homeland Security and 
make sure that we appropriately cover down on the gaps that 
exist.
    Military isn't the only solution to the gaps that exist out 
there. So the appropriate role for us would be a result of that 
more rigorous analysis in terms of what can be done across the 
team here from local, state, through the federal government. We 
have always bridged that gap within the National Guard program 
on a counter-drug and an innovative and earnest training.
    Any requirements that come out of that gap analysis will 
require the additional funding for us to effectively perform 
those missions.
    Mr. Thompson. So I guess the answer I am looking for is 
whether or not you presently possess the money and/or resources 
to address this request for 1,000 personnel to go to the 
border?
    Gen. Aylward. For additional 1,000 people to go to the 
border, as I mentioned a number of times, would be the 
increased funding to pick up the incremental cost associated 
with that deployment of the additional 1,000 folks.
    Within our program at large, we believe that we have at 
least up to 1,500 folks that could be available under the 
counter drug program, which is the congressionally mandated 
program that has a statutory cap of 4,000 and currently is at 
approximately 2,500 folks at this point.
    Mr. Thompson. Okay. Maybe I will get you to tell me what 
the answer. Thank you, General.
    Dr. Barth?
    Mr. Cuellar. Okay. Mr. Chairman, can I just follow up? The 
study that we have been talking about Governor Perry from the 
state of Texas, but I guess, you all analyzing the four border 
states, right, not just the state of Texas needs?
    Gen. Aylward. Yes, sir. That is the way I understand is 
that meeting this afternoon at the Eisenhower Executive Office 
Building.
    Mr. Cuellar. Right.
    Gen. Aylward. I understand Governor Perry has a requirement 
on the table for 1,000, but that has to be vetted again, you 
know, with the local, state folks and with our corporate 
partners and the 22 agencies that make up the Department of 
Homeland Security to make sure that we appropriately cover down 
on what that request is all about.
    Mr. Cuellar. And you said there are about 1,500 personnel 
that could be available right now?
    Gen. Aylward. Within our program, sir, we believe there is 
a statutory cap on the counter drug program, Title 32, Section 
112, of 4,000. I have approximately 2,500 people right now that 
are funded.
    Mr. Thompson. So you have 1,500 that are not funded.
    Gen. Aylward. Correct.
    Mr. Thompson. Okay. That is what I was trying to get to.
    Gen. Aylward. Okay, sir.
    Mr. Thompson. Thank you.
    Dr. Barth? Who at DHS is responsible for the Southwest 
Border Initiative?
    Dr. Barth. Sir, by her active engagement on the issue, I 
would have to say it is Secretary Napolitano. She is engaged on 
this issue with respect to every aspect of it.
    The use of the Merida funds south of the border to support 
the Mexican government, the deployment of the specific agents 
and inspectors from all of our component agencies, and takes a 
lot of the responsibility for ensuring interagency coordination 
with our sister department and agencies.
    Mr. Thompson. Well I appreciate your putting the ultimate 
burden on the secretary. Okay? But after secretary, I need you 
to give me, and maybe you can just forward it to the committee, 
the components that make up Southwest Border Initiative and the 
staff persons who are responsible for either management or 
oversight of each component. I mean, that is what I am trying 
to get to.
    Dr. Barth. We can provide you that, sir, very quickly after 
today's hearing.
    Mr. Thompson. One of the concerns is you heard two sheriffs 
talk about some concerns that they have, but I want to make 
sure that there is enough continuity of information and 
individuals so that their job can be made easier in this whole 
initiative process. It really doesn't matter which one, but as 
long as they are clear as to who the individuals they relate 
to.
    One other question.
    Ms. Ayala? Okay, good enough, I hope. What incentives do 
we, from the department level, offer state, locals, and tribal 
entities to participate in these programs, especially the BEST 
program?
    Ms. Ayala. Well, I think, first we provide a force 
multiplier effect, as Sheriff Dever was saying that often times 
we have a sheriff's office that have one or two people, and 
they are trying to be involved in a complex investigation. They 
may need more resources, more equipment.
    We, in turn, need their expertise. So by being on a BEST, 
we have multi-agency international, multi-disciplinary team 
that provides that.
    Number two, they are able to be cross designated in Title 
19 and Title 8, which is Customs and Immigration Authorities, 
at least be able to do their job and further those cases that 
they are working in furtherance of the BEST.
    We also have the asset sharing program so they can be paid 
for overtime and share assets for other things that they may 
need for their department, and because they are participating 
in task forces such as a BEST, they also can apply for DHS 
grants as specific to that.
    Mr. Thompson. Thank you.
    Both sheriffs, other than overtime, you heard some other 
opportunities that are available to you. Before the hearing and 
what you heard, were you familiar with that?
    Sheriff Dever. Mr. Chairman and Mr. Thompson, yes, to some 
degree. We have a great, at least at the working field level, 
great cooperative spirit with our federal partners on the 
border.
    Where communication generally breaks down and doesn't occur 
is what I mentioned earlier, there is a lot of planning, 
strategic planning, tactical planning and policy making that 
goes on in this town that then gets pushed down to the SACs and 
sector chiefs that have a local impact and are already in place 
before we ever hear about them, and the consequences are 
already developing.
    And so, again, we have seen a recent improvement. We 
welcome that with open arms. We hope that it continues. And 
continuity, as you mentioned, earlier, sir, has been the 
problem.
    We have, you know, little spaces and points of time where 
we sit down and we talk, and then it all goes off everybody's 
radar screen for some reason. We don't get back together until 
there is another crisis, and by then it is too late.
    I would in response to your question, if you don't mind, 
mention one other component here that is critical that isn't 
represented here today. In the federal scheme of things, the 
U.S. Attorney, and I don't know if this is at the Washington 
level or state level, they established thresholds for 
prosecution.
    For instance, drug smuggling cases in our state, the 
threshold for prosecution of marijuana smuggling cases, it is 
500 pounds. Anything under 500 pounds, is dismissed or referred 
to local and state prosecutors for dealing with, and we simply 
don't have those resources.
    And I know the U.S. Attorney is strapped for resources, but 
that is another component needs some serious addressing, not 
only for drug smuggling but people smuggling and the movement 
to illegal weapons in both directions across the border.
    Mr. Thompson. So when that happens, what burden does that 
put on you? Do you have to house those individuals until they 
are transported or what?
    Sheriff Dever. The local prosecutor has to make a decision 
on whether or not he has resources to prosecute. If he does, 
then we house those individuals.
    From a law enforcement perspective, what you will always 
here is we think everybody ought to go to jail who is committed 
a crime and that none of these people should walk and get off 
free.
    But they know they can come through a port of entry for 
something less than 500 pounds of marijuana or a couple of 
hundred kilos of cocaine, and within impunity.
    They will lose the contraband. They may lose the mode of 
transportation, but there is no criminal prosecution, and that 
just makes an open announcement that, you know, come on in. 
Nothing is gonna happen----
    Mr. Thompson. And you think that is predicated because 
there is no or there is limited resources available at the U.S. 
Attorney's Office to prosecute?
    Sheriff Dever. Yes, sir.
    Mr. Thompson. Sheriff Gonzalez?
    Sheriff Gonzalez. Yes, Mr. Chairman, in response to your 
question, also, yes. We are very much familiar with Ms. Ayala's 
talking about prior to today.
    Thing is, again, we cannot dedicate resources on a full-
time basis unless they are paid for. And I have two deputy 
sheriffs assigned to a HIDA task force. The deputy sheriffs are 
paid through HIDA funds. I could not afford to pay them through 
county funds. So we are familiar with the programs that are 
there.
    We are familiar with asset sharing. We are familiar with 
these things here; however, we cannot commit to some type of 
very long-term investigation. What I am talking about here 
today, Mr. Chairman, is something that is needed immediately.
    In other words, when you have that 911 call that is made to 
us, we have to respond now. It is not a long-term thing where 
we can leave it for next week. We have to respond now.
    So we are familiar with these programs. The things is, we 
just cannot dedicate the personnel for this long amount of 
time. For another one again is that this is something I love to 
hear. We just heard it last week again, information for Mexico. 
When you guys were working, which is us, we don't move our 
loads.
    To me, Mr. Chairman, I would much rather prevent a burglary 
or prevent a murder than try to solve it later on. To me, sir, 
deterrence is paramount. To me, deterrence is the best there 
is, and that is what we do.
    What Sheriff Dever was talking about also like the SCAP 
funding. District attorney in our jurisdiction does not accept 
any federal referrals at all. If you got 200 pounds of 
marijuana, federal government, you take it. If you got an ounce 
of marijuana, federal government, you take it. We do not accept 
federal referrals.
    We have to put these people in our jails again. We are not 
getting funded through SCAP. President Bush cut SCAP funding to 
zero, JAG funding to zero, Burn grants to zero. We cannot 
continue to--I guess you cannot continue to subsidize the 
federal government with local taxpayers when on April 15th, 
here comes IRS wanting more money.
    Our local taxpayers can just not afford these things. So 
what Sheriff Dever's talking about, we don't accept federal 
referrals, period.
    Mr. Thompson. Thank you, Mr. Chairman.
    Mr. Cuellar. Gentleman from state of Louisiana, Mr. Cao.
    Mr. Cao. Thank you, Mr. Chairman. I just want to ask you a 
very quick question concerning communication between local 
enforcement officers with federal agencies.
    Is there a system for you all to communicate, because based 
on the testimony of Sheriff Gonzalez, you were saying how the 
local people understand the situation; they know who the people 
are. Is there a communication system between the different 
level that exists out there?
    Sheriff Gonzalez. I am assuming you are talking information 
sharing, Mr. Cao, I think, not radio communication, right? 
Information sharing?
    What we do for information sharing is that we do submit our 
reports or intelligence information on a daily basis to our 
JOICs, to our Joint Operations Intelligence Centers. Ours is 
located in Laredo, Texas, and we have the main one in Austin, 
Texas, our state capital.
    There is communication, yes, sir. Just about a month-and-a-
half ago, as a matter of fact, I did call a meeting in my 
office with federal agencies and state agencies asking them to 
please participate a little bit more in information sharing and 
in providing us improper not improper rather information 
sharing. Is that what you are referring to, sir?
    Mr. Cao. Correct. Thank you very much. That is all I have.
    Mr. Cuellar. At this time, I would like to recognize Mr. 
Cleaver from the state of Missouri.
    Mr. Cleaver. Thank you, Mr. Chairman.
    To the sheriffs, do either or both of you know who T.J. 
Bonner is?
    Sheriff Dever. Yes. I am acquainted with Mr. Bonner.
    Sheriff Gonzalez. And I am also, sir.
    Mr. Cleaver. Mr. Bonner, in an interview last week, said 
that he was underwhelmed with the new emphasis that Secretary 
Napolitano has put in place, that it does not in any real way 
halt the flow of weapons going into Mexico.
    Apparently, the drugs travel northward and the weapons 
travel southward. Do you agree with Mr. Bonner, I mean, that 
our efforts are weak and that little change is going to take 
place?
    Sheriff Dever. If I may, I probably have a little bit 
different perspective on this, and I don't mean to be flippant. 
So I will try to be careful in my remarks, but, you know, there 
is a lot of talk about more southbound inspections, but I don't 
know if you have ever traveled out of Mexico into the United 
States.
    Mr. Cleaver. Yes.
    Sheriff Dever. Sometimes 2--, 2-1/2--,3-hour wait to cross 
the border because of our inspection process, and even then, 
only one out of, you know, a handful of vehicles is inspected. 
You start doing that going south, now you can begin to imagine 
what kind of infrastructure and personnel you are going to have 
to put in place to make a meaningful effort there to inspect a 
significant number of vehicles to make a difference in the flow 
of any kind of contraband entering Mexico.
    The other thing I would like to say I am a little puzzled 
that it is our fault that drugs are coming into this country at 
the same time it is our fault that weapons are flowing south, 
and I think that the Mexican government has a greater 
responsibility to step up to the plate and do their part on 
their side of the border in order to secure the sovereignty of 
their nation.
    Sheriff Gonzalez. With that also, sir, and I am more 
concerned, and I don't--this is not taken the wrong way, but I 
am more concerned with what is coming into our country, sir, 
than what is going out. Obviously, yes, I am concerned with 
weapons going to Mexico, because some of those weapons are 
going to be used against us in the near future, probably.
    But I am more concerned with what is coming in. Now, also, 
we are assuming here we are talking about ports of entry. The 
illegal stuff that we are seeing is coming into the country or 
going into Mexico in areas that are not ports of entry. In 
other words, between the ports of entry, and that is what 
concerns us.
    Now, regarding, again, more funding to Mexico, I am not 
saying that I am against the Merida Initiative by any way, 
shape or form, but what I am saying, sir, is that I think a lot 
of this money going into Mexico where you saw it pumping this 
money, you start squeezing this balloon, that balloon's going 
to burst somewhere.
    And I think through the Merida Initiative also, we could 
get some funding for local law enforcement on the U.S. side, 
and we can try to hopefully prevent that balloon from exploding 
into our country but rather maybe explodes at the southern 
border of Mexico.
    And I don't mean to say that in a bad way, but we also need 
something for the weapons, for the drugs on our side of the 
border also.
    Mr. Cleaver. Well maybe Ms. Ayala? Is the program that has 
been put in place, Operation Firewall, I mean, are we seeing 
any successes?
    Ms. Ayala. Yes, thank you. And as I answer that question to 
also say that as far as the strategy that is going on today as 
far as deploying agents to the border to help with the 
situation, is something we saw in 2005 with the Mexican 
government deployed federal and military and additional agents 
to the Nuevo Laredo, and we in turn sent agents down to the 
Laredo area to deal with increased border violence.
    And we saw a drop of from 68 murder rate in 2004 up to 168 
and then back down to 40 by 2007. So we did, by formulating 
this initiative, Operation Blackjack, that was a border 
enforcement security task force through international 
commitment, and the multi-agency concept, we were able to 
really make a difference in the area of border violence.
    So this is something similar that we are dealing with now 
when we think that we will be successful, and as far as 
Operation Firewall, we have really been seeing lately as far as 
prevailing smuggling methods along the border is the bulk cash 
smuggling initiative, and it has been very successful.
    It is a multi-prong initiative that looks at the domestic 
international and international movement of bulk cash, and we 
have been working with our partners in Domestic Highway 
Interdiction and we have seized over $183 million since its 
inception and 38 million of that has been seized in Mexico.
    Mr. Cleaver. Is it common knowledge where the ant trails 
are so-called ant trails? Is it common knowledge? Anyone, 
sheriff? General Aylward? I mean----
    Ms. Ayala. Are you referring to the weapons smuggling 
south, the one-by-one?
    Mr. Cleaver. Yes. The does this, I mean, they are called 
the ant trails that the drugs follow these ant trails from 
Mexico across the borders. There is apparently a number of 
them, is that a term that you are familiar with?
    Ms. Ayala. I am familiar with the term as far as weapons 
smuggling----
    Mr. Cleaver. Yes.
    Ms. Ayala. --used outbound, and I think it has been 
referred to in the context as to whether we are looking at 
complex smuggling organizations or just following out one 
weapon at a time, and we are doing both where we have seized 
many weapons.
    We are doing complex investigations and seized arsenals of 
weapons that, sometimes dozens at a time, but we do regard the 
one gun just as important as a, you know, magazine full of 
bullets that could kill an innocent bystander.
    Mr. Cleaver. Thank you, Mr. Chairman. I thank you, Mr. 
Chairman. I yield back all the rest of my time.
    Mr. Cuellar. Mr. McCaul?
    Mr. McCaul. I thank the chairman.
    Clearly, the state of violence has increased exponentially 
since the time we have come into office, the 6,000 killings, 
more than Iraq and Afghanistan combined, the beheadings, the 
torture, the killing. And I want to welcome the witnesses, and 
particularly the sheriffs for being here and the role that you 
play in the front lines.
    Sheriff Gonzalez? I agree with you. I think one of the 
criticisms of Merida was the fact that we didn't have a joint 
strategy on this side and didn't provide adequate funding for 
this side of the border. So my first question is to our DHS 
witnesses, Dr. Barth and Ms. Ayala.
    And that is, what is the new enhanced role for the 
sheriffs, and will there be increased assets and resources for 
them? I know the Secretary talked about a reallocation of the 
resources that she has.
    Dr. Barth. Thank you, sir. The primary resource change in 
the new announcement that the secretary made a week ago is with 
respect to the Stonegarden grants.
    There are some $58-59 million in unexpended, unobligated 
grants from 2006 and 2008 that we have expanded the use of that 
money for various additional applications by the state and 
local governments along the border states.
    The amount of money is unchanged from what has already been 
authorized and appropriated by Congress, but with the expanded 
capability to deploy that money, for example, you could see the 
state of Washington, which is facing significant bump up in 
cross-border traffic with the Olympics coming up.
    We could fund a 20-person state trooper team to go down and 
work along the southern border as a training exercise for them 
for what is coming in their future as well as helping out in 
the southern California border to deal with the criminal export 
of weapons and money, bulk cash, going south and drugs coming 
north.
    Beyond the Stonegarden money, at this time, we are not 
prepared to announce any new funding for the state and local 
partners, but I think you will see, as I already said, a 
substantial reach out from this former southern governor, 
Secretary Napolitano, to the state and locals to make sure that 
that partnership is as strong as it has ever been.
    Mr. McCaul. And let me say, I commend her for focusing on 
the Southwest border, which we have been focused on for quite 
some time--$60 million that sounds like a lot, but with the 
threat that we face, I don't believe is nearly adequate enough.
    If this is a major funding mechanism for the state and 
locals, I would suggest, Mr. Chairman, that we take a look in 
the Congress at increasing this funding for Stonegarden, which 
is a very successful and a very good program.
    And I think, Sheriff Dever, you mentioned $500 million was 
the amount that was talked about at the National Association 
level?
    Sheriff Dever. Yes, sir. We spent a lot of time just 
analyzing, talking to all the Southwest border sheriffs trying 
to get a grasp on a good hard number of what would be something 
meaningful, and that was the number that we came up with, $500 
million, actually, a year appropriated for 5 consecutive years.
    Mr. McCaul. I think in addition, the SCAP funding that you 
mentioned is very important. Another issue out of this 
committee's jurisdiction though as a former federal prosecutor, 
we could never take all these cases at the border, and I think 
more resources at Justice to handle the lower amounts, because 
what they are really good con artists.
    They are scamming us right now by bringing in shipments 
that are below the federal guidelines. And they are doing that 
at smaller quantities and getting around the system, and there 
is not enough resources there to prosecute and lock them up. 
And I think you all understand that as you live it day-to-day.
    I want to focus next to the National Guard, as the chairman 
mentioned, our governor has requested 1,000 National Guard. The 
Counter Drug Program has been successful. We had the JTF Sexton 
in El Paso out at EPIC, and it seems to me that we need to bear 
all resources possible on this issue.
    And it seems to me the Guard can play a very useful role 
with respect to patrols and inspections at the border to choke 
not only drugs and human trafficking coming in but to choke the 
weapons and the cash going from this country back into Mexico, 
which arm and fund these drug cartels, and I just wanted to get 
the general's comments on that.
    Gen. Aylward. As I have mentioned and as they go through 
that requirements analysis, we take a look at each range of 
activity, the troops, the task that they actually want us to 
perform, we kind of vet it against six criteria: What is the 
cost? Is it legal? Is lethal force going to be used? Is it 
appropriate for DOD to actually perform that role? What is the 
risk associated with it? And is their readiness impact?
    So based upon that criteria, we try to really kind of--down 
in terms of, you know, what is the image that we portray as 
U.S. military augmenting local and federal agents along for 
precisely the task that you described, sir.
    You know, you have to look through it through the lens of, 
you know, what is it going to look like in the media as well. 
And so, we are very thoughtful about that, and we are very 
deliberate working with our partners in terms of discovering 
what is the most appropriate role and how can we actually make 
sure that is sustainable, supportable, and affordable program.
    Mr. McCaul. And I understand the thoughtful deliberation 
you have to go through. How long of a time line are we talking 
about before a decision may be made? You know, if you will 
answer that, but--
    Gen. Aylward. Well, sir, I wish I had the answer myself, 
and frankly, you know, time sensitive planning or crisis action 
planning, the reality is that there has to be the more 
comprehensive, thoughtful--is this going to be something that 
we are just going to do for the next 6 months, or is this part 
of a corporate strategy that is going to span a number of 
years, perhaps maybe 5 or 10 years.
    And so, with that and then you really get, you know, what 
is the most appropriate answer or option for the leadership to 
consider? Is it, should it be a military thing or should it be 
one of the 22 partners in the----
    Mr. McCaul. No, I would submit that you look at the urgency 
of the situation. We talk about a tipping point. I think we 
have reached the tipping point. The spillover's pretty clear. I 
just had a drug cartel-related style killing just outside of 
Houston, in my district, just last week.
    This is the United States. I mean, these cartels are 
operating in the United States, moving their drugs through 230 
cities in the United States. So this is not just south of the 
border. And I think that we need to again bear every resource 
we have to address this urgent situation.
    Yes, sir?
    Gen. Aylward. Sir, we hope to be part of that process with 
our partners on the left and right of me.
    Mr. McCaul. Thank you. Can I indulge the chair in one 
final?
    Mr. Cuellar. Yes, sir.
    Mr. McCaul. I appreciate that. Sheriff Gonzalez, I am 
ranking member on the Intelligence and Information Sharing 
Subcommittee. You mentioned that information sharing has a long 
way to go, and I just wanted to follow up with you on that.
    And can you tell me and the committee what needs to be done 
to make sure you do have the information you need?
    Sheriff Gonzalez. Well, sir, the first thing, and I hope I 
don't get in any trouble for saying this, the first thing we 
need to do, sir, is learn to trust each other.
    And there are many times where, at least that is the 
impression that a lot of local agencies have that local 
agencies are looked down at. In other words, you are not state, 
you are not federal, you are local. The thing to remember, sir, 
is that we know our areas. We know who we are dealing with in 
our areas.
    It is like the same as having somebody come down TDY for 6 
months or so. They don't know the area. Texas is sending a lot 
of DPS troopers, state police troopers to the border area to do 
enforcement along the border. Many times they run into 
situations where they need some help, and they get on the radio 
and they can't talk to us, because we don't have any 
communication with them, one.
    In other words, sir, is that they don't know where they are 
at. So I have to send a deputy sheriff from Zapata 32 miles 
north and see if he is somewhere along the road going towards 
Laredo, 28 miles south to see if he is along the road somewhere 
south of us, or 32 miles east to see if he is somewhere out 
there. He don't know where he is at; we don't know where he is 
at.
    The thing is, information sharing, sir, is very important. 
We can talk about this all the time, every day. If local 
agencies are not involved, then it is going to be very hard to 
have that full cooperation from everybody. We need to work, as 
Chairman Cuellar, mentioned during his opening statement here, 
as a team.
    And we are part of the team, whether anybody likes it or 
not, we are part of the team. We are dealing with our turf. We 
are dealing with our territory. We are dealing with our 
counties.
    Our counties go to the river bank, and we have to work as a 
team. If we don't have that team effort, it is not going to 
work, sir. Information sharing should be done immediately. It 
is done in Texas. I am proud to say we, you know, we have the 
Joint Operation Intelligence Centers, six of them in Texas.
    Information is shared. Needs to go back out the same way. 
We are working on it. I think we were successful in Texas. I 
would hope that the nation would take this approach with what 
we are doing in Texas. It is working.
    Mr. McCaul. I agree with you, and you do need to be a part 
of the team to be able to do that. You need to talk to each 
other, and I commend the chairman for his great work. I know we 
had the hearing in Laredo last year on interoperability at the 
border, and I think the ability for you to talk to state and 
federal law enforcement is very important.
    Mr. Cuellar. Thank you, Mr. McCaul.
    At this time, I recognize the gentlewoman from California, 
Ms. Richardson, for 5 minutes.
    Ms. Richardson. Thank you, Mr. Chairman.
    I just have two questions. The first one is, currently, it 
is my understanding there are 12 BEST teams, Border Enforcement 
Security Teams, eight on the Southwest border, two on the 
northern border, and two in the seaports.
    At the request of the New Mexico's congressional 
delegation, on March 18th, the president decided to establish 
two BEST offices in that state. The question is: Should the 
California delegation be considering the same?
    Ms. Ayala. Ma'am, we have two of the eight Southwest border 
BEST located in California, one in San Diego and one in the 
Imperial Valley. And one of the maritime BESTs is in Long 
Beach.
    One of the ways that you or anyone can request to have a 
BEST in their area is to speak to a DHS entity in the field or 
at headquarters, and then what we do is we do a local threat 
assessment, and that is then reviewed at the headquarters level 
by ICE and CBP so that we can then prioritize where BEST should 
be or in what order we are going to deploy them.
    So that doesn't preclude any other citizen or someone in 
the government or congressional member for requesting that we 
send over BEST in their area.
    Ms. Richardson. So you said San Diego, Long Beach, and what 
was the second one?
    Ms. Ayala. Imperial Valley.
    Ms. Richardson. Okay. Is it determined that the one in San 
Diego is sufficient in your opinion?
    Ms. Ayala. Well based on the assessment by the SAC office 
there in CBP, right now, those are sufficient because of 
distances between them, because the coverage that we have in 
the border, the neighboring state of Arizona. So for right now, 
based on the assessments, San Diego, Imperial Valley, and Los 
Angeles or Long Beach are covering that area now.
    Ms. Richardson. Thank you. My last question, we have heard 
numbers such as only one in every four guns that is confiscated 
by Mexican authorities is actually provided to the AFT for 
tracing of its origin.
    I realize that AFT is not on the panel today; however, I 
would like to know if this is a symptomatic problem that we 
feel we need better coordination, which has been talked about 
today, or if, in fact, this is just individual law enforcement 
agencies who are refusing to give up control over their 
investigations.
    Ms. Ayala. I am not sure of the figures on that. I do know 
that we work very closely with the Mexican government and ATF 
through their Project Gunrunner and our Project Amas Cruzada to 
coordinate information and seizures of guns. So I can't speak 
to the number that ATF is actually receiving from the Mexican 
government to trace.
    But we are working very closely with them on that 
particular program.
    Ms. Richardson. The key though would be, numbers aside, 
would you agree that there is a turf battle going on in terms 
of agencies withholding or keeping information?
    Ms. Ayala. No, ma'am. The field agents work everyday 
collaborating whether it be on individual cases or operations 
or an ad hoc task forces or informal task forces. That is why 
when we created the task force, Border Enforcement Security 
Task Force, we made sure that anybody that came to the table 
had an equal say in the targets that we were going to identify 
and go after.
    And that if they bought a case to the table that they would 
lead it. That way they are equally invested and all of their 
equities are protected.
    Ms. Richardson. Would you followup with the AFT to verify 
if, in fact, they are only receiving 25 percent and report back 
to this committee?
    Ms. Ayala. Yes, ma'am.
    Ms. Richardson. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Ms. Richardson. Before I move on to 
Ms. Titus, let me just ask a couple questions.
    I guess this would be more for ICE, Ms. Ayala. Can you all 
have, do you all have the authority to when a foreign national 
is deported from the United States to give a state that 
information so they can then turn around and have their driver 
license deported? These are a couple questions that Governor 
Perry sent in a letter to Secretary Napolitano yesterday.
    First question he is requesting when a foreign national 
with a Texas driver license has been deported from the U.S., 
can the state of Texas be notified so then it can revoke his or 
her Texas driver license? Because apparently, according to this 
information, they get deported, then they will come back and 
they will use their driver license again.
    And, I guess, that would apply also to Arizona and any of 
the other states also. Do you have the authority to do that 
right now?
    Ms. Ayala. I am not sure of that. That is not my particular 
area. That belongs to another division. So I will get back to 
you on that----
    Mr. Cuellar. Would you get back to the committee on that 
question? The second question, and I guess to Dr. Barth or Ms. 
Ayala on this. The secured communities will use that electronic 
fingerprint booking.
    I think, for example, in the state of Texas, there is 19 
state agencies that are currently participating, but they are 
requesting to use those at the state prisons in Texas.
    Again this thing, it can apply to Arizona and New Mexico, 
you know, but have the other 233 agencies in Texas that 
maintain jails also use--be part of this electronic 
fingerprinting. Because according to the information that we 
have to date, 37,733 individuals have been checked through this 
system at just those 19 locations are participating.
    Out of that, 8,844 or 23 percent have fingerprints on file 
with ICE. So if we are getting such high numbers, it will only 
make sense that we spread that out not only to the other 
agencies in Texas or to Arizona and New Mexico, California. You 
know, I think you would get a lot of hits there to identify 
people that have those criminal records.
    So I guess my question, Dr. Barth or Ms. Ayala, do you all 
have the resources to extend that, and why has not been done 
earlier?
    Dr. Barth. Yes, sir. The Secure Communities Program is 
relatively new and is expanding as we speak. I am not sure what 
the president's budget will have for 2010 to continue that 
expansion, but it has been the Department of Homeland 
Security's view that, for some years, the fingerprint biometric 
database expansion is an extremely useful tool for identifying 
criminals early and dealing with them effectively.
    The U.S. Visit Program is the repository of the 
fingerprints collection, if you will, of DHS, and the 
administration's very close to being able to collaboratively 
share fingerprints across other agencies that also have 
fingerprint databases to improve the effectiveness of that 
program.
    Mr. Cuellar. Yes, and in other words, we have a databases 
out there. And we have state, local officials that would like 
to get that information, and I would like for you to get back 
to me and see what we can do to expand that, because if it is 
something that is working or even on the revoking of the 
licenses, if you could let the states know.
    And it all goes back to, I think, what Sheriff Gonzalez and 
Sheriff Dever were talking about, it is sharing the 
information, and this is another example that, I think, you 
know, we can do a better job at sharing that information with 
our local folks on that.
    Dr. Barth. Yes, we will get back to you, sir.
    Mr. Cuellar. Okay. At this time, I will ask the 
subcommittee's unanimous consent to insert Governor Perry's 
letter into the record. And there is another question that he 
asked, but we will go ahead and submit it into the record also.
    [The information follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Mr. Cuellar. All right, at this time, I will recognize the 
gentlewoman from the state of Nevada, Ms. Titus, for 5 minutes 
of questioning.
    Ms. Titus. Thank you very much, Mr. Chairman.
    My district in southern Nevada's not directly on the 
border, but I imagine that Las Vegas is a key stop along the 
supply line of anything moving both north and south. And I 
think it is very important that we address those supply lines 
that we now learn are miles away from the border.
    So what you are doing on the border is very important, but 
I would ask you, what are you doing to work perhaps with state 
and local officials further up that line to try to break the 
line and in that way have some impact on the things that are 
happening right on the border?
    Maybe Dr. Barth or Ms. Ayala?
    Ms. Ayala. We have 26 SAC offices throughout the nation 
that are investigating crimes related to human smuggling, human 
trafficking, drug smuggling, narcotics smuggling and other 
cyber crimes, child pornography and money laundering crimes, 
and they have offices that are located, sub offices, throughout 
the nation.
    And everyday, they work with state and locals just on those 
specific issues including Las Vegas and other areas to make the 
connection between the border and the supply lines and the 
destination cities.
    Ms. Titus. Is one of those 26 located in Las Vegas?
    Ms. Ayala. We do have an office in Nevada. Yes, ma'am.
    Ms. Titus. Okay. Well maybe I can get some more information 
about what they are doing in that office?
    Ms. Ayala. Yes.
    Ms. Titus. Thank you.
    Thank you, Mr. Chairman.
    Mr. Cuellar. Thank you, Ms. Titus.
    As we get ready to close up, I certainly appreciate your 
testimony and your answers to the questions, and I know our 
ranking member, Mr. Rogers, had some questions so if there is 
any other questions that are submitted in writing, I would ask 
you to submit the answers to us as soon as possible.
    But one of the things that I would ask, and I have done 
this, I guess, for the last panels and I am going to followup 
on what Mr. Rogers, Chairman Thompson mentioned, and something 
that we have been doing with other panels, is that I would ask 
you all within 30 days to submit some specific recommendations, 
working together, working through your appropriate command 
centers.???
    But I would ask you, Dr. Barth, if you could include 
somebody from city police association for some input here since 
we have a sheriff's association.
    But what I would ask is first, you know, the sheriffs, you 
know, if you can provide a specific recommendations that would 
assist you on your day-to-day to activities to provide security 
in your respective border communities.
    And all of you all together, I would ask you to come up 
with some specific recommendations as to how we can have some 
sort of coordination between the state, federal, local 
officials.
    Because one of the things that we are seeing is that, there 
are instances in time that an individual will go out there and 
do the efforts. For example, you all sent out, and I appreciate 
Secretary Napolitano sending Mr. Sexton out there to specific 
times. Well, you know, that is a specific time, what is the 
follow up?
    I mean, is there some sort of communication protocol or 
process that we can continue this communicating with the local 
folks. So what I would ask all of you all is to get together by 
phone, by person, work through your appropriate command 
structure and provide a report to the committee in 30 days.
    And I mean 30 days from today, and tell us how we can--go 
ahead and include the tribal community also in your 
recommendations also--to give us some very specific 
recommendations as to how we can coordinate and work together 
on a day-to-day basis where we can have a structure that works 
instead of saying well here is a new administration and they 
are doing an effort and then another administration comes in 
and then, you know, Dr. Barth, you are gone and, Ms. Ayala, you 
are gone, or any of you all are gone, some new people come in, 
I am gone, other people are gone.
    So we need to have some sort of structure on how we can 
coordinate on that and cover all the aspects of it. If there is 
specific needs that you all need for--sheriffs, you know, tell 
us exactly what specific needs that you have. I would ask you 
just temper the request. No, you know, no huge wish lists but 
just, you know, very specific things that you all need.
    And then, of course, on the federal level, I will ask you 
to do the same thing and reach out to our states also, the four 
states that we have. But I would ask you to do that. I will ask 
our committee to monitor this on a week-to-week basis, we would 
like to have a report, because I don't want to come back in 30 
days and say, you know, we need additional time.
    So our committee will be working with both our counterpart, 
Mr. Rogers, committee members also to make sure that you all 
come up with very specific requests. And following on what Mr. 
Rogers--the inventory, what we need, basically, that type of 
concept on that.
    Do you all have any questions as to what we are requesting 
of?
    Okay--30 days from today, without exception, I would ask 
you to please provide that information.
    Again, to all the members, I want to thank you for being 
here.
    To the witnesses, thank you for your valuable testimony. We 
appreciate it. The members of the subcommittee, as I mentioned, 
might have an additional questions. Please provide that to us 
as soon as possible.
    Having no further business, the hearing is adjourned. Thank 
you very much and good day.
    [Whereupon, at 11:40 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions from the Honorable Bennie G. Thompson, Chairman, Committee on 
                           Homeland Security

                  Responses from Dr. Richard C. Barth

    Question: Secretary Napolitano has promised to increase personnel 
and improve screening technology at the border to target the flow of 
illegal guns, narcotics, and cash associated with the increased border 
violence. We know from experience that one of the best ways to detect 
such items is with detector dogs, and DHS announced that it would put 
12 dogs toward the outbound inspection effort. But these dogs are being 
pulled off of inbound inspection assignments: about half from the 
Southwest border, and about half from other regions.
    The border is already short-staffed when it comes to having enough 
canines to screen incoming cargo, no less outgoing vehicles. We can ill 
afford to move these resources away from their current mission areas.
    What jobs will these 12 canines be taken from? 
    When will they be returned to their original posts?
    Why was the number 12 chosen?
    Response: In the mid 1990's the then U.S. Customs Service initiated 
a program to train dogs in the detection of currency and firearms. 
These teams were assigned with the intent to direct their enforcement 
efforts primarily toward outbound inspection operations. The use of 
specialized currency/firearm detector dog teams supplemented the 
narcotic detector dog teams, which focus on inbound inspection 
operations.
    Currently, U.S. Customs and Border Protection (CBP), Office of 
Field Operations (OFO) has 623 detector dog teams trained in several 
detection disciplines. Of that number, 340 detector dog teams are 
assigned to Ports of Entry (POE's along the Southwest Border (SWB). 
Five of these teams, assigned to the SWB, are trained to detect 
currency and firearms.
    In order to enhance the outbound enforcement effort, directed at 
interdicting smuggled firearms and currency, CBP increased the number 
of currency/firearms detector dog teams to be trained and deployed in 
fiscal year 2009. Training for the 21 new currency/firearms detector 
dog teams began in April 2009 with a projected graduation and 
deployment date of July 2009. Of these 21 teams, 14 are being assigned 
to the SWB.
    While the new teams are being trained, CBP deployed seven (7) 
additional currency/firearms detector dog teams to the SWB in order to 
augment the five (5) currency/firearms detector dog teams already 
assigned to the SWB. These seven teams were deployed from airports and 
seaports throughout the United States. It is anticipated that the seven 
teams will be returned to their home ports once the teams undergoing 
training have graduated and been deployed.
    CBP currency/firearms detector dog teams are primarily focused on 
outbound enforcement operations, so there is minimal impact on the 
screening and inspection of incoming cargo, which is screened and 
inspected by other detector dog disciplines (narcotics, concealed 
humans, agriculture, and explosives).

    Question: To counter the rising drug cartel violence, the United 
States and Mexico announced the Merida Initiative--a multi-year 
proposal for U.S. assistance to Mexico and Central America. As part of 
this initiative, DHS components, particularly CBP and ICE, will be 
required to commit personnel to help train Mexican law enforcement and 
customs officials.
    Are resources going to be pulled from ongoing U.S. border security 
operations to conduct these training missions?
    With significant money going to Mexico under Merida, does DHS have 
additional resources going to U.S. law enforcement - Federal, State, 
and local--along the border?
    Response: The Department of Homeland Security (DHS) continues to 
meet recent increases of cartel violence in Mexico with strong action 
and solidified coordination with U.S. federal, state, local, tribal and 
Mexican authorities.

The Merida Initiative
    Merida is funded through Department of State appropriations for use 
in Mexico, Central America and the Caribbean. Merida Funding will 
support equipment purchases, training and information technology 
infrastructure. Although DHS does not receive direct funding under 
Merida, assisting and training our Mexican counterparts helps to 
increase the effectiveness of U.S. security operations on both sides of 
the border. Moreover, we carefully plan our engagement so as to ensure 
that our Merida efforts will enhance, not detract from, U.S. border 
security operations.

Southwest Border Initiative
    On April 24, 2009, DHS Secretary Janet Napolitano announced a major 
set of SWB initiatives designed to support Mexico's campaign against 
violent drug cartels by limiting the flow of firearms and cash from the 
United States to Mexico. These initiatives bring more personnel to the 
SWB and place additional technology at strategic locations.
    The initiatives will be budget-neutral to the Department, funded by 
realigning from less urgent activities, tapping available fund 
balances, and, in some cases, reprogramming to deploy resources where 
they are currently needed the most.
    The exact placement of these increased resources will be determined 
by shared intelligence and coordinated with all relevant stakeholders: 
federal, state, local, tribal and international. Specific deployment 
location information is law enforcement sensitive and is not detailed 
below to protect operational planning. Furthermore, resources will be 
supplemented or moved based on continual changes in intelligence 
information and operational needs. Finally, these deployments parallel 
the Government of Mexico's (GOM's) Government's efforts to combat drug 
trafficking and associated criminal activity.

Doubling Border Enforcement Security Task Force (BEST) Staffing
         DHS will double the number of U.S. Immigration and Customs 
        Enforcement (ICE) agents assigned to BESTs--teams that bring 
        together federal, state, local and Mexican authorities in an 
        effort to increase cross-border crime investigations, arrests 
        and prosecutions at strategic locations along the SWB.
         Doubling assignments of ICE special agents to BESTs from 95 
        to 190 will help to facilitate seamless cross-border 
        enforcement actions. The 95 additional ICE investigators will 
        augment BEST task forces at the following locations: San Diego 
        and Imperial Valley, California; Phoenix and Tucson, Arizona; 
        Deming and Las Cruces, New Mexico; and El Paso, Laredo, and Rio 
        Grande Valley, Texas. In addition, to further BEST efforts in 
        Mexico, the Department will assign an additional four agents to 
        the Mexico City Attache to help coordinate BEST investigations.
         BEST details have already begun and the additional personnel 
        are currently in place.

Tripling DHS Intel Analysts on the SWB
         DHS will triple the number of intelligence analysts working 
        at the SWB, providing a greater capability to develop pre-
        operational intelligence reports, strategic intelligence 
        products and post-operational impact assessments to ensure DHS 
        resources have the maximum impact possible to protect public 
        safety.
         Thirteen ICE analysts are currently assigned to SWB 
        operations. Eight are assigned to BESTs and five are assigned 
        to the Border Violence Intelligence Center (BVIC) in El Paso, 
        Texas.
         ICE will detail 26 additional analysts to the SWB--16 will be 
        assigned to BESTs in Imperial Valley, Calif.; Phoenix, Tucson 
        and Yuma, Ariz.; and El Paso, Laredo and Rio Grande Valley, 
        Texas; five will go to the BVIC and five more to ICE Attache 
        offices in Hermosillo, Juarez, Mexico City, Monterrey, and 
        Tijuana, Mexico.
         Intelligence analyst details have already begun and the 
        additional personnel are currently in place.

Increasing ICE Attache Personnel in Mexico by 50 percent
         DHS will increase ICE Attache personnel in Mexico by 50 
        percent. This program supports the Mexican Government, as well 
        as domestic ICE offices, by pursuing investigations inside 
        Mexico involving money laundering, narcotics or human 
        trafficking, and weapons smuggling. With regard to narcotics 
        and its related activities, and in accordance with the current 
        Memorandum of Understanding, ICE will coordinate and deconflict 
        all narcotics trafficking related investigations and activities 
        related (as ICE does not have independent jurisdiction to 
        investigate narcotics trafficking inside Mexico) with the Drug 
        Enforcement Administration (DEA) which is designated as the 
        lead agency and single point of contact for foreign drug law 
        enforcement operations.
         Twenty-four ICE Attache personnel are currently assigned in 
        Mexico. ICE will detail an additional twelve Office of 
        International Affairs personnel to Attache offices in 
        Hermosillo, Juarez, Mexico City, Monterrey, and Tijuana, 
        Mexico.

Doubling Violent Criminal Alien Sections Assignments
         DHS will double the number of ICE Detention and Removal 
        Operations (DRO) personnel assigned to Violent Criminal Alien 
        Sections along the SWB.  These sections work to expedite 
        identification, processing for removal, and prosecution of 
        recidivist criminal aliens.
         Due to the large volume of cases of repeat offenders, namely 
        criminal aliens, doubling Violent Criminal Alien Sections 
        manpower will allow DHS to expand its ability to identify 
        perpetrators, develop casework and prosecute these violators.
         Fifty DRO officers are currently assigned along the SWB; ICE 
        will detail an additional 50 officers to support ICE and CBP 
        operations in San Diego, Calif.; Phoenix, Ariz.; and El Paso, 
        San Antonio, and Houston, Texas.

    Quadrupling the Number of Border Liaison Officers (BLOs)
         DHS will quadruple the number of ICE Border Liaison Officers 
        (BLOs) assigned along the SWB. These officers work to identify 
        and combat cross-border criminal organizations with a focus on 
        coordination between U.S. and Mexican law enforcement 
        authorities.
         Ten BLOs are currently deployed along the SWB: five are 
        assigned in San Diego, Calif., and five in San Antonio, Texas. 
        ICE will increase the number of BLOs by designating 30 
        additional special agents already deployed to the SWB to serve 
        in this capacity--resulting in a total of 40 BLOs operating at 
        the border. The additional assignments will be in San Diego, 
        Calif.; Phoenix, Ariz.; and El Paso and Laredo, Texas.
         Existing positions are already in place.

Bolstering Secure Communities Biometric Identification Deployment
         The Secure Communities program uses biometric identification 
        technology to share information between law enforcement 
        agencies in order to focus resources on assisting communities 
        in removal of high-risk criminal aliens.
         Currently, 23 counties in the SWB States of Arizona and Texas 
        use the Secure Communities biometric identification technology. 
        Secure Communities plans to make this capability available to 
        an additional 26 SWB counties in Arizona, California, New 
        Mexico and Texas within 90 days.
         ICE will also activate Secure Communities biometric 
        identification technology in Los Angeles County, Calif., 
        Ventura County, Calif., and San Diego County, Calif.

Implementing 100% Southbound Rail Screening
         Using non-intrusive inspections systems, CBP can screen 100 
        percent of southbound rail traffic to identify the presence of 
        any contraband, such as weapons or currency. In early March 
        2009, CBP launched 100 percent southbound rail screening at all 
        SWB rail crossings.

Increased Maritime Interdiction Operations
         In response to numerous U.S. Coast Guard (USCG) and Customs 
        and Border Protection (CBP) reports of go-fast boats loitering 
        or moving north along California Baja, DHS began focused 
        interdiction operations. Additional operations over the past 
        year have successfully stopped drugs and undocumented migrants 
        from entering the U.S.
         Operation Baja Oleada: This maritime operation, which began 
        in December 2005, cracks down on illegal migrant and drug 
        smuggling along California Baja to the arrival zone in northern 
        Baja and San Diego area. The Coast Guard maintains a twenty-
        four hours a day, seven-days per week patrol boat presence and 
        frequently surges additional patrol boats, with air support as 
        available. In FY 2009, the operation has resulted in seizures 
        of four vessels and more than 50,000 pounds of marijuana.
         Operation Red Zone: This highly successful interagency 
        operation to detect, deter and disrupt transnational smuggling 
        threats in the maritime approaches to southern California and 
        off Baja California ran from February 1 through March 31, 2009. 
        It involved USCG, CBP, U.S. Border Patrol, U.S. Navy, local 
        police and Mexican Navy (SEMAR).

Immediate Port of Entry (POE) Resources Enhancements
         Mobile X-Rays. This technology enhances the ability of law 
        enforcement authorities to identify contraband in passenger 
        vehicles that may contain weapons and/or currency. Previously, 
        seven mobile x-ray units were deployed along the SWB--four in 
        San Diego, two in El Paso, Texas, and one in Laredo, Texas. Two 
        additional units have recently been moved to Tucson, Ariz., and 
        Laredo, Texas.
         Border Patrol Agents. One hundred Border Patrol Agents 
        currently stationed in the area will be reassigned from non-
        critical tasks to augment southbound vehicle and pedestrian 
        inspection operations. More than 16,400 CBP agents currently 
        work between POE's along the SWB. No personnel will be 
        transferred to implement this initiative as the initiative is 
        already in place.
         Canine Detection Teams. CBP cross-trained canine teams, which 
        can recognize both currency and weapons, provide enhanced 
        detection capabilities in cargo and vehicles and on passengers. 
        CBP currently uses dual-detection teams along the SWB; 7 
        additional dual-detection canine teams have been deployed, for 
        a total of 12 teams in California, Arizona, and Texas. Up to 15 
        additional teams will be deployed to locations yet to be 
        determined.
         Mobile Response Teams (MRT). Mobile Response Teams are 
        deployed for short operations along the SWB, providing 
        increased enforcement presence and personnel to conduct 
        additional inspections of southbound individuals and vehicles. 
        Three MRTs, consisting of 25 officers each, are currently 
        available for special deployments along the SWB. Twelve 
        additional MRT officers have already been deployed to Texas and 
        Arizona field offices; 24 more are scheduled to be deployed to 
        the California, Texas and Arizona field offices in early May. 
        Combined with the four existing teams, these 36 officers will 
        comprise eight additional teams for a total of 12. Additional 
        deployments will be determined operationally.
         Operation Stonegarden Grants. DHS designed these grants to 
        enhance cooperation and coordination among federal, state, 
        local and tribal law enforcement agencies in a joint mission to 
        secure the border. On March 24, DHS distributed an 
        informational bulletin to all eligible state and local entities 
        outlining modified grant guidance for the remaining FY 2006-
        2008 balances (totaling up to $59 million). The new guidance 
        does not take funding away from any states. Rather, it expands 
        the scope of how the remaining balances can be spent to enhance 
        current state, local and tribal law enforcement operations and 
        assets on the SWB. Eligible expenses include activating reserve 
        and part-time law enforcement personnel, deploying existing law 
        enforcement personnel, and covering overtime expenses, travel 
        or lodging for deployment to the SWB. Secretary Napolitano 
        waived the 50 percent cap on personnel and operational activity 
        costs for local eligible jurisdictions along the border to 
        provide additional resources where they are needed most.
         License Plate Readers (LPR). License plate readers are 
        intended to automatically read vehicle license plates and 
        automate law enforcement queries. Southbound LPR information 
        provides valuable intelligence, enhances domestic and 
        international partnerships and supports (or enhances) current 
        weapon and currency southbound operations. CBP currently 
        operates 52 outbound LPR lanes at 16 SWB crossings. CBP has 
        initiated and expanded outbound operations and is moving 
        quickly to replace the 52 LPRs currently equipped in southbound 
        lanes to improve accuracy rates and enhance capability.

Periodic Evaluation and Review of the SWB Initiative
         DHS will employ an iterative and risk-based decision making 
        process that will guide the nature and makeup of DHS operations 
        on the border. Key considerations will be threats and 
        priorities across all of the Department's missions. Actions and 
        deployments within this initiative will remain flexible in 
        order to respond quickly and effectively to the most current 
        information and intelligence.
         Secretary Napolitano will be regularly briefed regarding DHS 
        operations on the SWB and will conduct quarterly reviews of DHS 
        enhancements.

                                 <all>

</pre></body></html>
